                                             SENSITIVE BUT UNCLASSIFIED



OFFICE OF INSPECTOR GENERAL

                                                       United States Department of State
                                                       and the Broadcasting Board of Governors
                                                       Office of Inspector General




                               OFFICE OF INSPECTIONS

                               Inspection of Consulate General Jerusalem




                               Report Number ISP-I-11-34A, March 2011
Inspector
General
Office of




                                                                      IMPORTANT NOTICE
                               This report is intended solely for the official use of the Department of State or the Broadcasting Board
                               of Governors, or any agency or organization receiving a copy directly from the Office of Inspector
                               General. No secondary distribution may be made, in whole or in part, outside the Department of State
                               or the Broadcasting Board of Governors, by them or by other agencies or organizations, without prior
                               authorization by the Inspector General. Public availability of the document will be determined by the
                               Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in
                               criminal, civil, or administrative penalties.



                                             SENSITIVE BUT UNCLASSIFIED

      SENSITIVE BUT UNCLASSIFIED





     PURPOSE, SCOPE, AND METHODOLOGY 

            OF THE INSPECTION

This inspection was conducted in accordance with the Quality Standards for
Inspections, as issued by the President’s Council on Integrity and Efficiency,
and the Inspector’s Handbook, as issued by the Office of Inspector General
for the U.S. Department of State (Department) and the Broadcasting Board of
Governors (BBG).

Purpose
The Office of Inspections provides the Secretary of State, the Chairman of the
BBG, and Congress with systematic and independent evaluations of the opera­
tions of the Department and the BBG. Inspections cover three broad areas,
consistent with Section 209 of the Foreign Service Act of 1980:
 • 	 Policy Implementation: whether policy goals and objectives are being effec­
     tively achieved; whether U.S. interests are being accurately and effectively
     represented; and whether all elements of an office or mission are being
     adequately coordinated.
 • 	 Resource Management: whether resources are being used and managed 

     with maximum efficiency, effectiveness, and economy and whether 

     financial transactions and accounts are properly conducted, maintained, 

     and reported.

 • 	 Management Controls: whether the administration of activities and opera­
     tions meets the requirements of applicable laws and regulations; whether
     internal management controls have been instituted to ensure quality
     of performance and reduce the likelihood of mismanagement; whether
     instance of fraud, waste, or abuse exist; and whether adequate steps for
     detection, correction, and prevention have been taken.

Methodology
In conducting this inspection, the inspectors: reviewed pertinent records;
as appropriate, circulated, reviewed, and compiled the results of survey
instruments; conducted on-site interviews; and reviewed the substance of
the report and its findings and recommendations with offices, individuals,
and organizations by this review.

Because of the close and complex interaction between the two missions, the OIG
team decided to carry out the inspection of Embassy Tel Aviv and Consulate
General Jerusalem simultaneously, not making final conclusions about one entity
until seeing the other.




      SENSITIVE BUT UNCLASSIFIED

               SENSITIVE BUT UNCLASSIFIED





                                           United States Department of State
                                           and the Broadcasting Board of Governors
                                           Office of Inspector General




                                     PREFACE


This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service
Act of 1980, as amended. It is one of a series of audit, inspection, investigative, and
special reports prepared by OIG periodically as part of its responsibility to promote
effective management, accountability and positive change in the Department of State
and the Broadcasting Board of Governors.

This report is the result of an assessment of the strengths and weaknesses of the
office, post, or function under review. It is based on interviews with employees and
officials of relevant agencies and institutions, direct observation, and a review of
applicable documents.

The recommendations therein have been developed on the basis of the best knowl­
edge available to OIG and, as appropriate, have been discussed in draft with those
responsible for implementation. It is my hope that these recommendations will result
in more effective, efficient and/or economical operations.

I express my appreciation to all of those who contributed to the preparation of this
report.




                                       Harold W. Geisel
                                       Deputy Inspector General




               SENSITIVE BUT UNCLASSIFIED

                            SENSITIVE BUT UNCLASSIFIED




                                               TABLE OF CONTENTS



     KEY JUDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

     CONTEXT. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

     EXECUTIVE DIRECTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

       Joint Issues . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

     POLICY AND PROGRAM IMPLEMENTATION . . . . . . . . . . . . . . . . . . . . . . . . . . 9

       Political and Economic Affairs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

       United States Security Coordinator . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

       Rule of Law. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

       Public Diplomacy. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

       Consular Affairs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

     RESOURCE MANAGEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

       Financial Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30

       International Cooperative Administrative Support Services . . . . . . . . . . . . . . . . . . . . . . . 32

       Human Resources . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

       General Services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

       Facilities. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41

       Information Management and Information Security . . . . . . . . . . . . . . . . . . . . . . . 44

     QUALITY OF LIFE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 53

      Community Liaison Office . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 53

      Equal Employment Opportunity. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 53

      Health Unit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 54 

      Employee Association . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 54

     MANAGEMENT CONTROLS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 55

     RECOMMENDATIONS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 57

     INFORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 65

     PRINCIPAL OFFICIALS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 73

     ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 75

     APPENDIX: JOINT ISSUES. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 77





iv                            OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


                            SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED





OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011   v


SENSITIVE BUT UNCLASSIFIED
            SENSITIVE BUT UNCLASSIFIED




KEY JUDGMENTS


 • 	 The U.S. Consulate General in Jerusalem deals primarily with the Palestinian
     Authority, whereas the U.S. Embassy in Tel Aviv deals with the Government
     of Israel. Inherent conflicts of perspective have inhibited coordination in
     some areas, but cooperation is significantly better than it has been in the
     past. The two missions should adopt a written clarification of their relations
     to prevent backsliding. Combining some administrative functions could save
     resources at both missions.

 • 	 The consul general has built relationships of trust with Palestinian leaders in
     the West Bank and effectively advises senior U.S. policymakers on develop­
     ments there, significantly contributing to U.S. foreign policy efforts in the
     region.

 • 	 The consulate produces strong reporting on political and economic issues
     in the West Bank. Reporting on Gaza is more difficult, as U.S. diplomats
     cannot travel to this Hamas-governed enclave.

 • 	 A program to equip and train a Palestinian security force has readied 6 of a
     planned 10 battalions and helped build institutions that would be needed
     by a future Palestinian state. A new U.S. security coordinator is moving to
     correct past failures to coordinate the work with other U.S. Government
     activities. Steps to normalize procedures and reduce administrative costs for
     this successful program are also needed.

 • 	 Training of security forces needs to be complemented by more training in
     the criminal justice sector and the rule of law. The Bureau of International
     Narcotics and Law Enforcement Affairs (INL) is building up a large new
     office in Jerusalem to coordinate this effort.

 • 	 The consular section recently relocated to a custom-built facility that has
     already enhanced workflow and customer service. The mission is reducing
     inefficiencies, refining communications, and increasing capacity in order to
     prepare for an expected growth in workload.

 • 	 Staffing in Consulate General Jerusalem has increased by 67 percent since the
     last OIG inspection, but expansion of facilities is constrained by U.S. legisla­
     tion and political considerations. The consulate has made innovative efforts
     in some areas to relieve this burden but needs to reach a shared understand­
     ing with all interested parties about one key facility.



             OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011   1


            SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED



       •   Information management (IM) programs meet the mission’s basic needs,
           but lengthy American staffing gaps resulted in a serious lack of consistency
           in leadership and program management, especially in information security
           oversight.

       •   Problems with the local compensation plan shared by Consulate General
           Jerusalem and Embassy Tel Aviv negatively affect the financial well-being and
           health care of locally employed (LE) staff. Resolution will require joint action
           by both missions.

    The inspection took place in Washington, DC, between September 1 and October
    8, 2010, and in Jerusalem between November 1 and 19, 2010. (b) (6)




2                  OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


                  SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



CONTEXT

The inspection coincided with President Obama’s push for new Israeli-Palestinian
peace talks. Senior U.S. attention to the efforts, and the difficulty the parties face in
compromising over settlements and other disputes, refocused world attention on this
conflict. (b)(2)(b)(5)

                                                                   A bitter history of
antagonism as well as recent provocations underlie mistrust between the two commu-
nities, accentuated in the Palestinian case by humiliation derived from their relatively
powerless position.

Consulate General Jerusalem traces its history back to 1857. It handles relations
with Palestinians and supervises U.S. programs in the West Bank (2,252 square
miles, slightly smaller than Delaware); the noncontiguous Gaza Strip (139 square
miles, twice the size of the District of Columbia and under the control of terrorist-
designated Hamas); and Jerusalem. The population in these territories comprises
4 million people, including both Palestinians and Israelis living in several hundred
settlements scattered throughout the West Bank and East Jerusalem. The consulate
general’s mission is further complicated by the unique political geography in which
it operates, including Israeli military occupation of the West Bank and conflicting
claims to sovereignty over East Jerusalem. The United States supports the resolution
of these issues through negotiations, and the consulate general must be careful to
avoid prejudging them through statements or activities.

Rather than being accredited to a host government, the consulate general deals,
on the one hand, with the Israeli Government on a range of administrative and
security issues in a way that does not blur the lines of responsibility for the U.S.-
Israeli bilateral relationship, which is the prerogative of Embassy Tel Aviv. On the
other hand, it maintains the U.S. relationship with the Palestinian Authority in the
Occupied Territories of the West Bank and interacts with the Palestine Liberation
Organization, Fatah, other non-terrorist-designated Palestinian political movements
and parties as well as the Israeli-run Municipality of Jerusalem. U.S. Government
contact policy rules out any dealings with Hamas, and travel of executive branch
personnel to Gaza has been prohibited since late 2003.

The United States’ principal foreign policy objective in the region is a peacefully
negotiated two-state solution to the Israeli-Palestinian conflict. Consulate General
Jerusalem has grown by 67 percent since 2007 in order to support this goal. Its
responsibilities now include supporting the Special Envoy for Middle East Peace
(SEMEP), the U.S. security coordinator, and the Roadmap Monitoring Mission, as


                 OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011   3


               SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED





    well as coordinating the efforts of U.S. Government agencies to build institutions
    for a future Palestinian state and create the political and economic conditions for
    peace. Other key goals include promoting intra-Palestinian reconciliation, providing
    humanitarian assistance in Gaza, and reducing violence and terrorism in a volatile
    security environment.

    A number of impediments affect the consulate general’s operations. Israel is not a
    party to the Vienna Convention on Consular Relations, so the consulate’s status rests,
    in the U.S. view, on “customary international law” rather than specific legal privi­
    leges and immunities. Because the West Bank is considered a high-threat security
    environment, U.S. officials who need to meet contacts or oversee projects there must
    rely on the consulate’s security protection. Contacts and programs in Gaza must be
    maintained largely by phone and email. Large numbers of official U.S. visitors create
    an additional workload. U.S. legislation, including the 1995 congressional directive
    that Embassy Tel Aviv relocate to Jerusalem, has inhibited the consulate general from
    housing its expanding workforce in more suitable facilities. The consulate general
    is an embassy-like entity that has chief of mission authority and reports directly to
    Washington rather than to Embassy Tel Aviv but that relies on the embassy for key
    services and intercessions with the Israeli Government.

    Consulate General Jerusalem has 100 direct-hire American and 371 LE positions,
    representing five U.S. Government agencies that are housed in six buildings. Total
    Department of State (Department) funding for consulate operations and programs
    during FY 2010 was approximately $96 million. During this same period, U.S.
    assistance to the Palestinians in the West Bank and Gaza totaled approximately $750
    million, including a cash transfer of $150 million; $100 million in security and rule
    of law programs; $250 million in economic, humanitarian, and institution-building
    programs; and $247 million for the United Nations Relief and Works Agency for
    Palestine Refugees in the Near East (UNRWA).




4                   OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


                  SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




EXECUTIVE DIRECTION


Consulate General Jerusalem carries on its shoulders the Palestinian half of U.S.
involvement in Middle East peace efforts. Despite constant setbacks and exogenous
variables beyond its control, the consulate is doing an outstanding job of representing
U.S. positions to the leadership of the Palestinian Authority and advising American
officials of developments in the West Bank and Gaza. A talented, hard-working staff,
led by a charismatic consul general, advance U.S. objectives with energy and skill.

Intense focus on the peace efforts in Washington adds complexity to the consulate’s
work. The U.S. security coordinator and his large staff operate out of the consulate.
SEMEP visits frequently and maintains a staff there. The Roadmap Monitoring
Mission requires extensive support. Senior Washington officials rely on the consul
general’s perspectives and advice, which are informed by his extensive service in the
region. Washington consumers also praise the quality and quantity of the consul­
ate general’s reporting on Palestinian issues. The consul general and his deputy
strengthen analytical reporting through a regular practice of extensive, substantive
discussions with senior staff on how to interpret what they are hearing from their
interlocutors.

Consulate leadership has established relationships of rapport and trust with the
leaders of the Palestinian Authority. Acute cultural sensitivity and the ability to speak
both Arabic and Hebrew fluently allow the consul general to communicate directly
with counterparts, picking up nuances and confidences that greatly enhance his
understanding of political and interpersonal dynamics in the West Bank. The OIG
team witnessed several events in East Jerusalem and the West Bank where the consul
general also demonstrated his skill as a persuasive public speaker. Due to the sensitive
nature of the peace negotiations, the consul general keeps a fairly low profile with the
media; he could build support for more fundamental American positions by raising
that profile. Consulate leadership actively supports a range of public diplomacy (PD)
programs, including outreach to Palestinian populations through American Corners
in the West Bank and Gaza and an America House in East Jerusalem.

The consul general and his deputy principal officer (DPO) employ a traditional
and effective division of labor: For the most part, the consul general handles policy
issues and outside contacts and sets the mission’s strategic direction, whereas the
DPO focuses on managing internal consulate operations. They consult with each
other constantly and effectively. The DPO has ably handled the responsibilities of
serving as chargé d’affaires and earns the respect of his colleagues for his courtesy,
guidance, and editing skills. The OIG team found that he experiences difficulty in
some instances in reaching decisions, expediting paper flow, and delegating authority,


                OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011   5


               SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



    resulting in overwork on his part and a decrease in the efficiency needed in a busy
    mission like Consulate General Jerusalem. The OIG team left an informal recom-
    mendation to expedite decisionmaking and delegate more responsibility to section
    chiefs.

    The consul general and DPO together have successfully supervised a rapid expansion
    of consulate staff—a 67 percent increase since 2007—and the allocation of scarce
    physical space under the constraints, described in the context section in this report,
    and in the glare of politically loaded press scrutiny. With the able support of the
    management officer and her team, they also reenergized an innovative and politically
    important project to renovate a building in East Jerusalem, which will house several
    unclassified consulate functions (b)(2)(b)(5)


    Consulate leadership ably directs the support of a visitor load that far exceeds that of
    most posts its size. The OIG team observed smooth handling of a senior congressio-
    nal delegation, followed immediately by two U.S. generals and several other visitors.
    High-level visits to Jerusalem usually include meetings in the West Bank, entailing
    the complex protective services required for all U.S. officials—including consulate
    staff carrying out their normal daily work—traveling there. The OIG team accom-
    panied consulate staff into the West Bank and was impressed by the quality of the
    consulate’s protective escort packages and the efficiency of their allocation. Consulate
    leadership has demonstrated appropriate attention to security and emergency
    preparedness as applied to all aspects of life and work at this danger-pay post.

    Consulate General Jerusalem enjoys a high ésprit de corps despite cramped working
    conditions and scattered facilities, the inherent intensity and danger of the environ-
    ment, and the intractability of the issues many employees deal with daily. The consul
    general has inspired many officers, who told the OIG team that they feel proud to
    work toward mission goals as part of a high-performance team. This helps to balance
    a high level of tension, which results in part from the knowledge that any missteps
    could have serious negative consequences. Most agencies represented at post are
    integrated into a network of meetings that enhances interagency coordination. Most
    U.S. employees appear satisfied with the quality of life issues for which the consulate
    is responsible.

    The consulate has an exceptionally diverse LE workforce. Consulate leaders main-
    tain harmony among religious and ethnic factions by moving fast to quell tensions
    that arise over outside events. The consulate has an adequate Equal Employment
    Opportunity (EEO) program, but the OIG team discussed with consulate leadership
    ways that it could more effectively address the special needs and recruiting obstacles
    faced by residents of the West Bank. (See the section on quality of life for additional
    discussion, as well as the appendix on joint issues for a recommendation.)



6                   OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


                   SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




JOINT ISSUES

With the determined leadership of the consul general, DPO, and their counterparts
in Tel Aviv, relations between Consulate General Jerusalem and Embassy Tel Aviv
are better than they have been in many years. The OIG team found a better picture
of cooperation than expected. The OIG team saw no reason to question the current
authorities or areas of operation of the two posts, but both missions could do more
to maximize their limited resources by combining forces further and supporting each
other whenever possible. The OIG team made a number of findings and recom­
mendations for joint action on these issues. Because they will require action by both
posts, they appear in an appendix on joint issues that is included at the end of this
report and at the end of the OIG inspection report on Embassy Tel Aviv. Note that
all joint recommendations are treated formally in a separate report, Joint Issues in the
Inspections of Embassy Tel Aviv and Consulate General Jerusalem (ISP-I-11-35).


Entry-Level Officers
Some entry-level officers (ELOs) and specialists have missed out on the professional
and morale benefits enjoyed by other American employees in Consulate General
Jerusalem. Although the consul general takes an interest in ELOs and the DPO
meets regularly with many of them, the present ELO program is not able to provide
them with the range of opportunities and mentoring needed for career development.
The OIG team met individually and as a group with the ELOs and concluded that
some rarely see or understand the full scope of the consulate’s activities. Some have
been unable to participate in the broader work of the consulate, such as helping
support its many visitors.


    RECOMMENDATION 1: Consulate General Jerusalem should develop and
    implement a plan to provide entry-level officers with mentor pairings and well-
    defined opportunities to support official visits, speak in public fora, produce
    written reports, and participate in representational events. (Action: Consulate
    General Jerusalem)



Strategic Planning
The consulate produced a detailed Mission Strategic and Resource Plan for FY 2012.
The process was inclusive of all agencies. The document assumes that Israel and
the Palestinians will agree by 2013 to separate into two sovereign states and that
Gaza will be reunited with the West Bank. Based as it is on policy goals and not


                OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011   7


               SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




    prediction, this assumption is of limited practical help for planning purposes except
    to remind policymakers that resources at this mission will need to expand sharply if
    the Palestinian areas do become an independent state. As noted previously, there are
    several different plausible scenarios, each with radically different implications for U.S.
    consular and diplomatic presence.




8                    OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


                   SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



POLICY AND PROGRAM
IMPLEMENTATION

POLITICAL AND ECONOMIC AFFAIRS
Consulate General Jerusalem uses separate economic and political sections to analyze
and influence developments in the West Bank and Gaza. The OIG team found
no reason to recommend a different approach, and this report discusses their work
together. Both sections face a number of common problems, including heavy visitor
workloads and the need to travel in armed convoys to meet contacts. Despite being
located in different buildings, the two sections cooperate closely. Their reporting skill­
fully combines political and economic factors—an important issue in the Palestinian
context and an outcome that is not always produced merely by combining sections.

Both sections are led by experienced officers with strong leadership and management
skills. Morale is high. Section chiefs produce reporting and analysis themselves but
devote significant time to mentoring and management, engaging all American and
LE members of staff in frequent, substantive discussions to facilitate and guide their
work. As a result, the consul general and DPO rarely need to intervene in the day-to­
day management of either section.

The consulate produces strong reporting on the West Bank, where it has extensive
contacts with the senior levels of the Palestinian Authority. The mission is aware
that it is less successful in reporting the views of ordinary Palestinians outside
(b)(2)(b)(5)                          Ramallah. For security reasons, those areas are
more difficult and expensive to reach; for now, the mission focuses its scarce resources
on areas such as Ramallah that are more likely to produce immediate reporting and
respond to heavy demands by Washington consumers. The appendix on joint issues
included at the end of this report contains a recommendation to make more use of
joint reporting with Tel Aviv on some Israeli-Palestinian issues.

Reporting is made more difficult by the fact that almost every trip to meet a
contact or discuss an issue must be made in an armored convoy. This increases
the time required to produce reporting and makes it difficult to build contacts in
some communities. Israeli checkpoints in the West Bank are maintained by several
different agencies that do not always coordinate with one another, further adding
to frustrations and delays. Despite these constraints, the operational tempo for report­
ing officers is high. Both sections give high marks to their regional security office




                 OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011   9


               SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




     colleagues for protective details and report a gradual downward trend in the number
     of times a necessary trip is cancelled because too few security personnel are available,
     though cancellations and delays continue to affect reporting.

     As recommended in the 2005 OIG inspection, responsibility for Gaza was transferred
     from Embassy Tel Aviv to Consulate General Jerusalem. The change has helped
     produce a more integrated view of Palestinian developments. Reporting on Gaza is
     constrained, however, by the inability of U.S. diplomats to travel there because of
     security considerations and because Hamas, a designated terrorist organization, took
     power there in 2007. Unable to travel there themselves, consulate officers rely on infor­
     mation from other diplomatic missions, nongovernment organizations, the media, and
     UNRWA. They also meet with Gazan contacts outside Gaza. This approach enables
     the mission to keep visibility on the area, but its contacts can become outdated in the
     absence of visits. The OIG team recommended informally that the consulate create a
     temporary working group to rebuild and expand contacts in Gaza, thereby pooling the
     efforts currently being made by several different sections.

     Some officers are frustrated by the mission’s tight control of information; however,
     the OIG team found a disciplined reporting hierarchy that gathers a large amount
     of information at more junior levels and reduces it to smaller summaries as it makes
     its way to senior levels of the consulate and to Washington. This approach results in
     tightly drafted cables focused on priority concerns, with each conclusion only the tip of
     a much larger pyramid of information that has been digested, synthesized, and summa­
     rized. Washington consumers widely praised the consulate’s reporting.

     Reporting could be further strengthened by the inclusion of more biographic informa­
     tion on key Palestinian officials. Insights gathered now into their economic, political,
     and other views will be useful in the future if mid-level officials become the leaders of
     a Palestinian state. The OIG team recommended informally that the mission designate
     an officer as biographic coordinator, include more leadership analysis in its reporting
     plans, and coordinate the effort with International Visitor and other programs.

     Consulate General Jerusalem does not report on trafficking in persons issues. Because
     the West Bank and Gaza are not a sovereign state, U.S. legislation1 does not require the
     Department to include them in its annual trafficking in persons report to Congress.
     Nevertheless, the spirit of the legislation calls for voluntary reporting on this issue. The
     OIG team recommended informally that the mission include trafficking issues and the
     Palestinian Authority’s efforts to deal with them in its annual reporting plans.

     Because it is not accredited to a sovereign government, the consulate’s formal
     démarche load is light. At the same time, it is deeply involved in institution building.
     Economic and political officers work closely with Palestinian Authority officials as

     1
         Trafficking Victims Protection Act of 2000 (22 U.S.C. § 7101).



10                          OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


                          SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED




they gradually take over day-to-day management of some parts of the West Bank
and assist them with a host of practical considerations, ranging from human rights
to water. This work does not involve direct cooperation with Israeli officials in the
occupied territories but requires careful coordination with Embassy Tel Aviv and the
United States Agency for International Development (USAID). The OIG team found
a broad consensus that advice by U.S. diplomats, along with training and exchange
and assistance programs, has contributed to a shift among some Palestinian leaders
from ideology to the practicalities of governance.

For the first time in years, the political section is appropriately staffed in terms
of number of positions. The creation of a permanent office management special­
ist position helped reduce the inefficiencies caused by having officers perform the
office management duties. The mission also received a new political officer posi­
tion in the Global Diplomatic Repositioning Program in 2008 and uses it to good
effect to increase reporting. As noted in the section on security assistance, the OIG
team recommended making the political-military position in the political section
permanent instead of using temporary duty staff or other ad hoc staffing methods
to support the work of Office of the U.S. Security Coordinator (USSC). Despite the
high operational tempo and long hours, adding further positions beyond this to the
political section would not help, as it would merely subdivide portfolios further and
work against attempts to integrate and synthesize reporting.

Instead, the mission should redesign the officer grades in its political section. At
present, it is bottom heavy, with too many ELOs either filling a first-tour position
or substituting for a mid-level officer. As a general policy, the Department does
not provide ELOs with more than 6 months of language training. This skill level
is insufficient to enable officers to conduct business in the West Bank in Arabic.
Regardless of individual competence, officers at this post without this language
capability are not being positioned for career success. The practice of assigning ELOs
with language waivers to political positions in Consulate General Jerusalem instead
of filling positions with mid-level officers also forces section leaders to divert too
much time from reporting and operations to mentoring and training. The mission
reduced the problem through a creative rebalancing of its top-heavy economic section
and its bottom-heavy political section, but it continues to have too many political
officers on their first reporting tour.




   RECOMMENDATION 2: The Bureau of Near Eastern Affairs should
   cease requesting, and the Bureau of Human Resources should cease granting,
   language waivers for language-designated positions in the political section of
   Consulate General Jerusalem, acting to redesignate all positions in that section
   as mid-level. (Action: NEA, in coordination with DGHR)



                OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011   11


              SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




     Refugees

     A refugee coordinator with responsibility for Syria, Jordan, Lebanon, the West Bank,
     and Gaza works as part of the consulate’s political section and reports to the Bureau
     of Population, Refugees, and Migration (PRM). She spends the majority of her time
     on West Bank and Gaza assistance issues but makes regular visits to refugee camps in
     the rest of her jurisdiction. Jerusalem’s refugee program does not have a resettlement
     component, and the coordinator solely oversees assistance programs to Palestinians and
     others who are not seeking to leave the region.

     U.S. assistance to Palestinian refugees is channeled through UNRWA, which reports
     twice a year to PRM on the status of its programs, using established criteria. PRM also
     funds a number of special projects, including one for the construction of new schools
     in Gaza, and the refugee coordinator monitors the projects through twice monthly
     meetings with UNRWA’s Gaza representatives.

     The refugee coordinator also reports on Israel’s refugee and asylum program. She is in
     regular contact with the human rights officer at Embassy Tel Aviv and with the office
     of the UN High Commissioner for Refugees on issues ranging from Israel’s treatment
     of refugees in the Sinai to the asylum process in Israel. Consulate General Jerusalem
     and Embassy Tel Aviv report jointly on those issues. The refugee coordinator is assisted
     by one LE staff member who has a strong program management and development
     background that enables her to work independently and at a high level on a full range
     of PRM issues. If the security situation permitted this LE staff member to move freely
     in the region, she would be even more effective; however, as a West Banker, she is
     limited in travel routes, after-hour programs, and access to the workplace.




     UNITED STATES SECURITY COORDINATOR
     Since the last OIG inspection, Consulate General Jerusalem has expanded its respon­
     sibilities to include a large security assistance program. The 2003 “Roadmap for
     Peace” called for Israel and the Palestinian Authority to improve security as a neces­
     sary step toward peace. To help achieve this goal, the Department in 2005 created
     the USSC. Headed by a three-star general who reports to the Secretary of State
     through the Bureau of Near Eastern Affairs, this office is funded through INL and
     carries out its work as part of Consulate General Jerusalem. Since the last inspection,
     approximately $395 million in International Narcotics Control and Law Enforcement
     funds have been reprogrammed or appropriated for this program and related projects
     in the criminal justice sector.




12                   OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


                    SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




Using ad hoc methods for its initial staffing, funding, and office needs, USSC
quickly stood up a program to train a Palestinian security force of as many as 10
battalions. Training is carried out in Jordan. These forces are not military and are
not traditional police, but they are increasingly capable of helping other Palestinian
Authority forces maintain public order. The program does not include Hamas and
deals only with the West Bank. Press reporting credits it with overcoming skepticism
on both sides and beginning to build the kind of disciplined and law-abiding forces
necessary for a peaceful state.

The program does not authorize the transfer of any lethal equipment. USSC offi­
cers told the OIG team that they are scrupulous about seeking Israeli Government
approval for all equipment provided to the Palestinians. A review of records shows
that they are vetting all trainees for human rights abuse, as required by the Leahy
Amendment, as well as for connections with foreign terrorist organizations. Unlike
Hamas, the Palestinian Authority renounced terrorism as a means of national
struggle.

Despite these successes, the OIG team found a failure until recently to coordinate
the USSC’s work with other U.S. Government efforts involving the Palestinian
Authority. USSC sends reports about its operational work to INL but has not
included the rest of the consulate general in its reporting on policy-sensitive issues
or strategic planning. This has hindered oversight of this important program. In an
effort to improve coordination, the Department sent successive officers on temporary
duty to act as political advisors to USSC. This approach did not produce results
because USSC did not permit the political advisors to participate in key meetings
or report their findings to Washington. The OIG team found that a permanent
political-military position in the political section would be more useful than a politi­
cal advisor.

During the inspection, a new U.S. security coordinator arrived at post and imme­
diately undertook a comprehensive review of USSC operations. This review is being
conducted in what appears to be a new spirit of cooperation. It offers a chance to
“reset” the relationship between USSC and the rest of the mission while developing
a plan for completing the training program (b)(2)(b)(5)
                                    A 2010 review of the program by the Government
Accountability Office noted the logistical constraints it faces and called for the
development of better indicators to measure progress.2




2
 GAO-10-505, Palestinian Authority: U.S. Assistance is Training and Equipping Security Forces, But the Program
Needs to Measure Progress and Faces Logistical Constraints (May 2010).



                     OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011        13


                   SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





         RECOMMENDATION 3: The Bureau of Near Eastern Affairs should
         improve coordination between the Office of the U.S. Security Coordinator
         and other elements of Consulate General Jerusalem by creating a permanent
         position for a political-military officer in the political section of Consulate
         General Jerusalem and not by assigning temporary duty political advisers to
         the Office of the U. S. Security Coordinator. (Action: NEA)




         RECOMMENDATION 4: Consulate General Jerusalem should support
         the U.S. security coordinator in his review of Palestinian training programs
         by preparing a briefing on political considerations necessary for a successful
         program, including the consulate general’s expectations for coordination, and
         present the briefing to all new personnel assigned to the Office of the U.S.
         Security Coordinator. (Action: Consulate General Jerusalem)


     Now that the USSC program is established, it is time to normalize its administrative
     procedures. Overhead costs are higher than they need to be because of inadequate
     accounting, ad hoc methods of operation, and insufficient communication between
     the military personnel who carry out the training and the civilian personnel who
     manage its funding. In some cases, this has led to waste or to unnecessary expenses;
     some USSC officers, for example, have lived for years in expensive hotels because USSC
     considers their assignments “temporary.” In 2010 the Office of the Under Secretary for
     Management conducted a review of the Department’s logistical and financial support of
     USSC, resulting in a June 2, 2010, memorandum ordering changes in its support and
     funding. The review highlighted deficiencies in accountability and identified possibili­
     ties for cost savings. The memorandum instructed the Bureau of Near Eastern Affairs,
     INL, Consulate General Jerusalem, USSC, and the Bureau of Resource Management
     to implement eight changes.

     The OIG team found that Consulate General Jerusalem has made progress on the
     action items for which it is responsible. It now manages the USSC allotment and
     processes travel authorizations and vouchers. It has made plans to lease residences and
     order furniture for USSC personnel instead of putting them in hotels. Action on some
     of the remaining changes is assigned to bureaus in Washington, although they require
     coordination with the consulate general. In several cases, USSC and the INL office
     in Jerusalem still need to clarify their division of responsibilities.

     The USSC staff is a mixture of American, British, Canadian, and other military
     officers on a wide variety of assignments. American personnel are under chief of
     mission authority, but British and Canadian personnel are not. The ability of these


14                   OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



allied officers to travel more freely in the West Bank improves USSC’s operational
effectiveness but sometimes invites confusion over whether they are speaking for
the U.S. Government or their own. (b)(2)(b)(5)




    RECOMMENDATION 5: The Bureau of Near Eastern Affairs should
    draw up memoranda of agreement laying out procedures for the conduct and
    protection of the Office of the U.S. Security Coordinator staff not under chief
    of mission authority. (Action: NEA)




RULE OF LAW
Training in security has increasingly been supplemented by training in the criminal
justice sector and the rule of law. In August 2007 INL established an office in the
consulate to administer this program. The consulate envisions an expanded INL
office in the future and an annual budget of approximately $100 million.

A rule of law working group is starting to hold regular meetings that include all
relevant agencies in Jerusalem and representatives from Embassy Tel Aviv. The
mission is also developing ways to work more closely in the crowded Palestinian
space with other donors such as the European Union. The OIG team left an infor-
mal recommendation that the mission use the frequent and helpful presence of an
SEMEP lawyer on temporary duty to help prepare a rule of law strategy paper to
identify key objectives and performance indicators, clarify the roles of different agen-
cies, and provide a basis for assessing future resource needs.

The INL office also provides a growing amount of administrative support to USSC,
but not without some problems. Some (but not all) of the difficulty can be attributed
to USSC members who are unfamiliar with Department procedures. The OIG team
found a number of unauthorized commitments for the INL and USSC offices, and
records reveal this is a long-term problem. An INL management review team identi-
fied this area as due for correction in September 2009, but at least two unauthorized
commitments were made since that time. The INL office hired two new procure-
ment agents since the last unauthorized commitment and is developing standard
operating procedures to maintain closer control over INL and USSC purchase orders.
The OIG team informally recommended that the consulate stress the importance of
these procedures to both INL and USSC staff.



                OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011   15


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




     The INL office includes a number of new employees who need training. Work state­
     ments refer to this training as taking place over several years. Due to the increasing
     responsibilities of the office, including the need to provide guidance to USSC on
     Department regulations, it is important that the consulate accelerate its schedule for
     this training.


        RECOMMENDATION 6: Consulate General Jerusalem should draw up
        and carry out an expedited training plan for new members of its Bureau
        of International Narcotics and Law Enforcement Affairs office. (Action:
        Consulate General Jerusalem)


     Both the INL office and USSC lease vehicles on a long-term basis. The Under
     Secretary for Management identified this practice by USSC as wasteful and recom­
     mended that the consulate purchase vehicles instead for an overall cost savings of
     $105,000 per year after 2 years. USSC returned all leased vehicles at the end of FY
     2010 and is including this issue in the comprehensive review described earlier. At the
     beginning of FY 2011, INL rented two vehicles to provide transportation for USSC.
     INL and USSC have not prepared requests to purchase vehicles as an alternative to
     long-term leases.


        RECOMMENDATION 7: Consulate General Jerusalem, in coordination
        with the Bureau of Near Eastern Affairs and the Bureau of International
        Narcotics and Law Enforcement Affairs, should review the vehicle needs of the
        Office of the Bureau of International Narcotics and Law Enforcement Affairs
        and the Office of the U.S. Security Coordinator and purchase the number
        of vehicles needed in order to discontinue the practice of long-term leasing.
        (Action: Consulate General Jerusalem, in coordination with NEA and INL)




     PUBLIC DIPLOMACY
     In the past 3 years, the PD section (PD Jerusalem) has added two officer positions
     and several new LE staff. It now comprises 7 officers, 1 eligible family member, and
     17 LE staff, in addition to 2 positions that administer grants under the Middle East
     Partnership Initiative. The new staffing enabled the section to increase educational
     and cultural programming, making judicious use of special funding and taking
     advantage of added end-of-fiscal-year funds. The press unit actively responds to the


16                   OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




demands of this high-profile news environment. The consulate has opened a new
program space, “America House,” in East Jerusalem, which is used for meetings,
student briefings, film showings, and other events. American officers may not travel
to Gaza because of security concerns, but Consulate General Jerusalem maintains a
full program of exchanges, English classes, and speaker programs there, coordinated
through creative use of digital videoconferencing at its Gaza American Corner.
The PD section conducts outreach to the West Bank through a program space in
Ramallah and American Corners in Salfeet and Jericho.

Morale is high among American and LE staff. All feel part of a team that is involved
in important work. The combination of new employees, an extremely active press
and program regime, and expanded outreach facilities has, however, created a number
of growing pains. Some lines of responsibility are not clear, and roles have not been
adequately delineated, especially among LE staff. The public affairs officer uses his
considerable experience to provide needed guidance and mentoring for the entire PD
staff but should create a tighter organization for this busy section. The OIG team
informally recommended that the public affairs officer redefine responsibilities and
lines of supervision, using an off-site meeting with a written agenda to explain the
organizational plan and maintain a spirit of teamwork and joint purpose.


American Corners and Program Platforms
Because of its unusual political environment, Consulate General Jerusalem has to
devise creative program platforms that differ from the typical American Corner. The
PD and management sections collaborated to open an America House program space
in June 2010 in East Jerusalem. This facility does not have a resident director or wide
array of publications but is instead a library space and multipurpose room in a facility
operated by AMIDEAST, an American nongovernment organization that conducts
Department-sponsored student advising and English classes for students. The loca­
tion in East Jerusalem is an attractive venue for Palestinians. The PD section uses
America House for film showings, discussion groups, and exchange grantee briefings.
Officers from other sections also use the space as a convenient place to meet with
contacts from East Jerusalem.


Similarly, the consulate general leases a program space in Ramallah to reach West
Bank Palestinians who cannot come to Jerusalem without a permit. PD officers work
closely in Ramallah with AMIDEAST, which is also active in the West Bank, facili­
tating an array of official U.S. Government exchange programs. The Ramallah space
consists of a conference room with digital videoconferencing facilities and a larger
meeting space with computers, DVDs, and a small number of books. The space is
not open to the public but is used for program events and can serve as a convenient
venue for consulate officers and official visitors to meet with West Bank contacts.


                OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011   17


               SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




     The consulate’s two other West Bank American Corners, in Salfit and Jericho, also
     make good use of outreach programs.


     Media Reporting
     PD Jerusalem produces an Early Alert media summary and a Media Reaction cable
     that is sent to the Department and other consumers daily. These products are highly
     regarded by the Bureau of Near Eastern Affairs and the Under Secretary for Public
     Diplomacy’s Rapid Response Unit; however, their delivery is sometimes delayed by
     an extra layer of clearance required by the deputy principal officer. Although the
     consulate is concerned about the political sensitivity of some items from the local
     media, the OIG team found that such high-level clearance was unnecessary and
     risked delays. Foreign Affairs Manual (FAM) regulations 10 FAM 415.3, 415.4, and
     415.5 require posts to convey prominent news stories that concern U.S. policy issues
     exactly as they are reported in the local press-related items.


        RECOMMENDATION 8: Consulate General Jerusalem should send local
        media reaction reports immediately, as described in Department of State regu­
        lations, without delaying their transmission for high-level clearance. (Action:
        Consulate General Jerusalem)



     Social Media
     Greater use of social media would be an effective tool in communicating with
     Palestinian audiences in East Jerusalem, the West Bank, and Gaza. A thriving
     environment for social media flourishes among Palestinians. Most Palestinians
     under 30 have Facebook accounts. Although the quality of Internet connections is
     sometimes low, there are many Palestinian Internet providers, and connections are
     available through schools and Internet cafes. Internet-based communication works
     especially well in Gaza, where the consulate general has developed a virtual presence
     through the American Corner and by making strong efforts to maintain contact with
     exchange program alumni.

     The PD section plans to expand its use of social media to activate contacts, keep in
     touch with alumni, and publicize events. It hired a new LE member of staff with
     expertise in social media and Web-based communication and is planning a social
     media conference for Palestinians with a U.S. speaker and panel. The consulate
     enjoys good support from the Office of International Programs, whose social media
     expert visited Jerusalem in September 2010 and advised on methods to enhance
     products, increase audiences, and develop a strategic social media plan.


18                   OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


                   SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




Scheduling Security Escorts for West Bank Travel
Only American personnel are allowed to use the consulate’s electronic calendar
to request security escorts for employees who need to travel to the West Bank on
official business. Because the PD section does not have an American office manager,
it cannot use the system to add or amend requests for security escorts on short
notice when all officers are away on business. Enabling LE staff to enter requests in
the scheduling system would increase efficiency. The OIG team found that such a
change is technically feasible and would have no impact on security concerns.


    RECOMMENDATION 9: Consulate General Jerusalem should revise its
    electronic scheduling system for security escorts to allow designated locally
    employed staff members to add or amend requests for security escorts for offi­
    cial travel to the West Bank. (Action: Consulate General Jerusalem)



Visa Process for Exchange Grantees
Visas for official exchange program participants are complicated by security and
political concerns. The entire list of nominees for International Visitor Leadership
Program participants, for example, must be submitted to the regional security office
for independent name checks. (b)(2)(b)(5)
        . These two steps take approximately 1 month to complete. Only then can
names be sent to the Bureau of Educational and Cultural Affairs for approval and
issuance of a Form DS-2019 (Certificate of Eligibility for Exchange Visitor Status) for
each grantee. Once the PD section receives hard copies of the DS-2019, it submits the
visa applications. A significant number of International Visitor visa applicants require
additional administrative processing that may involve several agencies and can take as
long as 3 months. At each step of the process there is potential for delay.


During the inspection, the consulate asked the Bureau of Educational and Cultural
Affairs for expedited issuance of DS-2019 certificates. The OIG team left an infor­
mal recommendation that the PD, consular, and other sections collaborate to identify
additional ways to streamline the visa vetting process for exchange visitors.


Special Procedures for Exchange Grantees from Gaza
In accordance with Mission Strategic and Resource Plan goals, the consulate makes
special efforts to include Gazans in official exchange programs, but procedures for
Gazans are even longer and more complex than for other Palestinian grantees.


                OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011   19


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     (b)(2)(b)(5)
                     In addition, the consulate sends an officer to escort grantees from
     Gaza to their visa interviews in Jerusalem and back again. Until recently, this escort
     included a member of the consulate local guard force as well, a requirement that has
     now been lifted. When Gazan grantees travel to the United States for their exchange
     programs, the consulate again escorts them from Gaza to the border with Jordan.
     (Most Palestinians from the West Bank and Gaza are not allowed to depart from
     Israel’s Ben Gurion Airport, but only Gazans are required to be escorted personally
     to the border with Jordan.) The entire procedure is repeated when the Gazan grantee
     returns from the U.S. exchange program.

     The PD section has done an admirable job of organizing the process and maintains
     a roster of consulate officer volunteers for this escort duty. Nevertheless, this system
     consumes too many hours of officer time that could be more productively spent. It
     also requires expenditures of U.S. Government funds when grantees must spend extra
     nights in Jordan while awaiting escort. The assistant cultural affairs officer devotes
     30 to 40 percent of her time to this issue, in addition to countless hours spent by LE
     staff.

      The OIG team was unable to locate documents confirming the consulate’s under-
     standing that the Israeli Government requires all grantees from Gaza to be escorted
     in this manner. According to consulate officials, however, Deputy Secretary of
     State Steinberg discussed the issue in 2009 with Israeli authorities, who indicated
     that there might be some flexibility regarding whether the escort needed to be an
     American diplomat or an LE staff member. USAID routinely sends LE staff members
     as escorts for its Gaza exchange grantees.




         RECOMMENDATION 10: Consulate General Jerusalem, in coordination
         with Embassy Tel Aviv, should reevaluate its system for escorting official U.S.
         Government exchange grantees to and from Gaza, clarify Israeli Government
         requirements, and develop alternate plans under which employees other than
         American diplomats could provide routine escort duty. (Action: Consulate
         General Jerusalem, in coordination with Embassy Tel Aviv)




     CONSULAR AFFAIRS
     Consulate General Jerusalem relocated its consular section from antiquated, cramped
     offices to a custom-built facility less than a month before the inspection. The three


20                   OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




consular managers are very capable and dedicated to both excellent service and a
congenial workplace. Management was still perfecting workflow in the spacious
premises. The section brought with it some outdated or unnecessary procedures that
detract from overall efficiency, but the consular staff has the potential to increase
its caseload and to eliminate backlogs. The OIG team identified several areas for
streamlining and outreach to assist in these efforts.


Consular Management
For the first time in years, Consulate General Jerusalem’s consular operation has
adequate, well-designed space and a full staffing complement. Both officer and LE
staff respect the team of consular managers, who in turn have a realistic grasp of the
deficiencies of and opportunities in their respective operations. Management gives
internal controls high priority, and oversight of controlled items, fee collections,
print stations, and work space is strong. Consular management has identified three
areas that require more attention: LE staffing structure, workload management, and
communications. The OIG team agrees with these priorities.


Locally Employed Staff
The immigrant visa (IV) LE members of staff are graded at three different levels,
ranging from Foreign Service national (FSN)-6 to FSN-8, with an FSN-10 supervi­
sor. Essentially all staff, with the exception of the supervisor, do the same tasks on a
rotating basis. This practice is common in most IV units worldwide, but normally
all nonsupervisory staff members in the same unit have the same grade level. The
disparity in grade levels for the same work creates disaffection. The LE supervisor’s
attempts to reserve the more responsible work for senior LE staff, despite the apti­
tudes and interests of the more junior staff, has created unnecessary backlogs in some
areas, restricted professional development, and limited the unit’s flexibility.

In the relatively small nonimmigrant visa (NIV) unit, all the LE members of staff
are at the FSN-6 level, with an FSN-10 supervisor. The complexity of the NIV work
in Jerusalem, the need for the LE staff to be skilled in three languages, the reliance
on accurate interpretation during interviews, and the number of cases requiring
security advisory opinions suggest that the grade levels of the nonsupervisory LE staff
members may be too low compared to those that the OIG team has seen elsewhere.
On the other hand, the supervisory grade is relatively high. The position descriptions
were not updated following the introduction of the Consular Electronic Application
Center process.




                OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011   21


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




        RECOMMENDATION 11: Consulate General Jerusalem should update the
        locally employed staff position descriptions in the two visa units and submit
        the updated position descriptions for Computer-Aided Job Evaluation review.
        (Action: Consulate General Jerusalem)



     Workload Management
     The consular section has ample space to handle a significant increase in public
     services. The main obstacle to efficient workflow is at the compound access control
     (CAC), where both the security and greeter-appointment verification processes create
     bottlenecks. (b)(2)(b)(5)

                       but consular officers and LE staff often have to wait inside at
     empty interview windows while clients are delayed at the compound entrance.

     The consular section has one contract greeter who works out of a secure booth at the
     CAC. The greeter checks visa applicants against an appointment list and assembles
     some documents before customers pass through security. An LE staff member from
     the American citizens services (ACS) unit mans a second secure booth to perform
     similar services for that unit’s clientele. Because both categories of applicants have
     appointment letters, they could easily approach security screening directly. The docu-
     ment assembly done at the CAC could be completed along with the prescreening that
     normally occurs at the interview windows. If the local guards admit applicants on
     the basis of their appointment letters and only those with no appointment letter are
     sent to the greeter’s booth, one greeter can provide information or arrange the entry
     of the remaining visa and ACS customers, thereby freeing up the ACS employee to
     serve the public inside. The OIG team informally recommended that the local guards
     conduct security screening for customers based on their appointment letters and
     that the greeter be reserved for customers without appointment letters or those with
     emergencies.

     The new consular facility offers options for more efficient security screening. The
     CAC itself is manned by a generous number of local guards and is the most spacious
     CAC that this OIG team has seen. The local guards admit family groups to the
     CAC, even several people at a time, but they admit nonrelated applicants only one
     at a time, even if this involves American citizens. This restriction often causes a
     second bottleneck at the compound entrance. Only once the rear door is shut does
     a guard summon the next person in line to enter the CAC. Allowing more than
     one nonrelated American citizen or IV applicant into the CAC at the same time
     would increase the flow of customers into the waiting area, minimize lost time at the
     interview windows, and move customers more quickly away from the street and into


22                   OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




a secure area. Because the National Visa Center has completed background checks
on all IV applicants prior to their appointments, the risks run by having two or three
of them in the CAC at the same time would be negligible. The OIG team informally
recommended that the consular section chief walk through the CAC process with
the regional security office, identify bottlenecks, and improve procedures that have a
negative impact on productivity.

Once inside the waiting area, there is also some inefficiency at the interview
windows, but consular management is already addressing the problem. The ACS LE
staff cannot always prescreen a sufficient number of passport and consular report of
birth cases to keep pace with the consular officer interview rate. A swing prescreen­
ing window that takes advantage of the LE staff member who currently works at the
exterior reception booth will increase capacity. Reducing interview time for clear-
cut visa and passport cases, eliminating refusals for unnecessary documents, and
providing clear instructions to U.S. citizens who file petitions in Jerusalem for their
prospective immigrant relatives would all improve workload management. The latter
two areas will be discussed in the IV section of this report.

Consulate General Jerusalem is a complex, multicultural workplace. LE supervisors
are often the most experienced employees but not necessarily the best managers.
There is less of a sense of being part of a team in the visa units than there is in the
ACS unit, where LE staff are completely cross-trained. The visa chief is planning to
provide supervisory training to senior LE staff and to work directly with LE staff in
those units rather than working primarily through LE supervisors. The OIG team
supports this focus.

Consular management is eager to be as transparent and communicative as possible,
but there are difficulties in a district where some customers cannot access the
consular section easily and where even telephone communication may be restricted.
Most information about consular services comes from the consulate’s Internet
Web site. The consular portion of this Web site is not welcoming. Links to official
Department sites refer applicants to information that is often overly technical and
never in Hebrew or Arabic. The IV email box provides automatic replies to frequently
asked questions, but only in English. LE staff members respond to email inquiries
about specific cases, even those involving complicated ineligibilities, in English even
when the inquiry is in Hebrew or Arabic. Officers do not review email responses that
require individual responses rather than templates. The IV unit does not have any
times set aside for phone inquiries. Consular management intends to update its Web
site and to make it available in the two official languages of the consular district.
The OIG team informally recommended that the IV unit establish and publicize
telephone inquiry hours, that the section prepare automatic replies to the public email
accounts in three languages, and that employees respond to email questions in the
language of the inquirer. The OIG team also suggested ways that the Web site and
appointment letters could be made more informative and attention getting.


                OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011   23


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




     Immigrant Visas

     Consulate General Jerusalem processes IVs for all of Israel, the West Bank, and Gaza.
     The consular section also accepts petitions from American citizens resident in the
     consular district for the immigration of their relatives. For a number of reasons, offi­
     cers deny a very high percentage of IVs at the time of initial interview, which means
     that many cases are handled multiple times before eventual approval. At the time of
     the inspection, the IV unit was taking steps to reduce a several-month backlog of IV
     cases in which the petitions had been filed locally. If the majority of these cases also
     result in documentary refusals, the backlog of unissued cases will increase further,
     with a concomitant increase in email contacts and congressional inquiries, as well as
     a negative public image. Consular management is aware of the need to overhaul its
     IV processing and keep backlogs under control. If it fails to do so, IV processing will
     be a continual drag on the section’s overall effectiveness. The OIG team made an
     informal recommendation to help address this issue.

     The entire consular section struggles with the need to work through interpreters for
     a relatively high percentage if its interviews. Although all interviewing officers have
     studied either Arabic or Hebrew, ELOs are limited to approximately 6 months of
     language study. This skill level is insufficient for the more complicated IV interviews.
     As many as four LE staff at a time may do double duty as interpreters. Not only does
     this slow down the interviews, but it increases backlogs in LE case processing and
     correspondence. Only experience with the language and with the subtleties of IV
     interviewing can resolve this problem.

     Management can take immediate steps, however, to eliminate other inefficiencies in
     the IV process. Over the years, Consulate General Jerusalem has added requirements
     for IV issuance that are not covered by regulation. The IV unit requires applicants
     to provide certified English translations of all civil documents even though 9 FAM
     42.65 N1 does not require translations of civil documents in the official languages of
     the country where the IV is being processed. The IV unit also requires that all affi­
     davits of support be accompanied by the most recent year’s tax return even though
     9 FAM 40.41 N5.5 a. (1)(a) and (3)(d) state that the affidavit of support is to be
     accompanied by the “most recent income tax return that the sponsor had filed prior
     to the time of the affidavit…signing.” The same FAM passage also clarifies that an
     adjudicator should accept such documentation as sufficient unless there is a specific
     reason, other than the passage of time, to request the current year’s tax returns.


         RECOMMENDATION 12: Consulate General Jerusalem should cease
         routinely requiring certified translations of Hebrew and Arabic civil docu­
         ments and current year tax returns for immigrant visa processing and
         inform the National Visa Center to adjust its checklist accordingly. (Action:
         Consulate General Jerusalem)


24                   OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




U.S. citizens who are permanently resident in Jerusalem’s consular district may file
petitions for their relatives, but they must demonstrate their intention to relocate to
the United States either before or with their immigrating relatives per 9 FAM 40.41
N6.1-2. Jerusalem has a high refusal rate for this population because the U.S. citizen
petitioner is required to file an affidavit of support for his family members but often
has no tax return to support the affidavit. In such cases, the petitioner is required
to complete a statement explaining why he or she has not filed a tax return and to
provide an additional affidavit of support from a cosponsor. Although this informa­
tion is included in the checklist of required documentation that the National Visa
Center or the consulate sends to all applicants, it is not highlighted in any way. Few
IV applicants arrive with affidavits from additional sponsors or with the required
tax letter even though both are normally easy to procure. The OIG team informally
recommended that Consulate General Jerusalem develop a handout on this issue,
give it to U.S. citizens filing petitions locally, and provide it to the National Visa
Center to include in its checklists.

According to 9 FAM 42.66 N2.2, the number of panel physicians is to be kept to
a minimum, normally no more than two physicians per jurisdiction. Consulate
General Jerusalem has seven panel physicians. Geographic and political consider­
ations require there to be panel physicians in Gaza and the West Bank. In addi­
tion, Jewish and Arab populations may require different physicians; however, in
such a small area, it is not necessary to have panel physicians in several locations.
Their number and locations make it difficult to oversee their processes and ensure
consistency.




    RECOMMENDATION 13: Consulate General Jerusalem should review its
    panel physician program and reduce the number of approved physicians in
    Israel and Jerusalem to comply with guidance in the Foreign Affairs Manual.
    (Action: Consulate General Jerusalem)



Nonimmigrant Visas
The NIV process is also inefficient for some of the same reasons outlined in the IV
section of the report. Interviewing officers rely heavily on interpreters for the more
complicated cases. Officers often spend an unnecessary amount of time continu­
ing to interview applicants after they have already decided they are qualified. The
workflow is well conceived, however, from the time the electronic application is
downloaded and checked for fraud or security indicators up to the time of the actual
interview.



                OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011   25


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




     The NIV unit makes good use of its consular assistant to collect biometrics, manage
     the security advisory opinion process, and review and retire its Category 1 file hold­
     ings. The unit has authorization for a consular associate position, however, and if
     funding permits, management intends to send the consular assistant for the required
     consular associate training. The OIG team supports this initiative.

     Consulate General Jerusalem has a robust Visas Viper program, which is discussed in
     the classified annex to this report.


     American Citizens Services
     Consulate General Jerusalem handles one of the largest passport and consular
     report of birth abroad workloads in the world. Many of the ACS clients reside in the
     West Bank or Gaza and cannot obtain permits to enter Jerusalem. Most American
     citizens resident in Gaza seek consular services either in Cairo or through a special
     periodic process that provides service at the border. The ACS unit manages a separate
     appointment system for customers who live in the West Bank. One LE staff member
     is dedicated to setting up appointments and preparing West Bank cases for monthly
     road trips to Ramallah. The goal is to ensure that the cases will be ready for speedy
     final processing when the consular officer, cashier, ACS assistants, and protective
     security detail travel to Ramallah. ACS staff reviews all documentation prior to final­
     izing appointments. During the inspection, consular management and the regional
     security office were working to identify more suitable premises for the Ramallah
     processing. At the time of the inspection, there was a several-month waiting period for
     appointments in Ramallah to process passports and consular reports of birth abroad.
     The OIG team informally recommended that the ACS unit make a concerted effort to
     reduce the Ramallah backlogs by making more frequent trips, adopting a more stream­
     lined fee collection process, and increasing the number of services provided per trip.

     The ACS chief acknowledges that the unit can increase its caseload now that it has
     ample interview windows. He has already made several adjustments to workflow and
     welcomed the OIG team’s suggestions on eliminating the employee at the CAC, using
     the cashier for other appropriate duties, and handling unexpected customers when
     workload permits. The inspection occurred in the unit’s low season, and there was
     virtually no wait time for ACS appointments except in Ramallah. With an adequate
     number of cross-trained and generally experienced LE staff, the ACS unit is well
     positioned to handle its workload with acceptable wait times, even in peak season, as
     long as there are no significant staffing gaps in the officer contingent.

     The consulate general has a four-person federal benefits unit, which is a claims-taking
     operation that also has responsibility for several non-claims-taking posts in the region.
     The Social Security Administration funds the federal benefits unit staff, maintains a
     computer system linked to the administration’s headquarters, and determines the unit’s


26                    OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




workload priorities and processes. The unit has a dedicated privacy booth for its inter­
views but is otherwise colocated with the ACS unit. This proximity means that both
the federal benefits unit and the ACS unit are constantly vigilant to the protection of
personal information.


Fraud Prevention Unit
Consulate General Jerusalem has a moderate amount of fraud in both of its visa
units. Ideally, the fraud prevention manager is a mid-level consular officer; however,
Jerusalem’s modest visa workloads and adequately staffed ACS unit do not justify an
additional mid-level position. Although the current fraud prevention manager is an
ELO and has interviewing responsibilities as well, she has maintained the fraud portfo­
lio for her entire tenure at post, providing needed continuity. The sole LE investigator
appears to have played a pivotal role in the development of the fraud prevention unit.
In 2007, the fraud prevention unit investigated 28 IV cases and confirmed fraud in
6. By the end of 2009, the unit had investigated 198 IV cases and confirmed fraud in
68. As expected, antifraud efforts appear to be reducing the incidences of fraud, with
only 44 cases of IV fraud confirmed in the first 10 months of 2010. The fraud preven­
tion investigator expends considerable effort on developing contacts, which had paid
off with an enviable network of judicial and police contacts in Israel, Jerusalem, and
the West Bank. The investigator also scrutinizes all the electronic NIV applications
the day before the scheduled interviews and provides valuable cultural and security
information to NIV officers in real time.


The first Bureau of Immigration and Customs Enforcement agent arrived in
Jerusalem only days before the inspection. At the time of the inspection, the agent
was waiting for computer systems to arrive, preparing for an additional agent, and
hiring a local investigator. In April 2011, Jerusalem also expects its first assistant
regional security officer for investigations, who will also have a local investigator. All
three operations will be colocated in the consular section. When all three offices are
operational, they will form a nexus with significant capacity to detect and prevent
fraud and reduce the likelihood of issuing visas to criminals and potential terrorists.




                 OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011   27


               SENSITIVE BUT UNCLASSIFIED
     SENSITIVE BUT UNCLASSIFIED





28   OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


     SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




RESOURCE MANAGEMENT


                                                                     U.S.                                        Total
                                                                                 Foriegn
 Agency                                      U.S. Direct-           Local-                         Total
                                                                                 National                     Funding FY
                                             Hire Staff              Hire                          Staff
                                                                                  Staff                          2010
                                                                     Staff
 State – D&CP                                                                                                  $8,245,235

  SEMEP                                                 3              1              1             5                    
  USSC                                                  16             1              3            20                    
  Executive                                             5*                                          5                    
  Political                                             9              1**            3            13                    
  Economic                                              5              1**            2             8                    
 Regional Affairs***                                    7                             2             9                    
 State – ICASS                                          12             6           248                        $14,432,300
 State – Public Diplomacy                               7              1             17            25          $2,906,078
 State – Diplomatic Security                            11                          30             41          $4,920,289
 State – Marine Security                                7                             4            11            $335,400
 State – Representation                                                                                           $27,470    

 Public Diplomacy – Representation                                                                                $11,447    

 State – OBO                                            1                                           1          $8,870,219
 State – PRM                                            1                             1             2            $187,000
 State – Middle East Partnership                                       1**            1             2            $315,700
 Initiative
 State Consular Affairs                                 9              2            27             38          $1,369,589
 State INL                                              3****                       12             18         $54,340,869
 Department of Treasury                                 1                             1             2         Not Serviced
 Department of Justice – LEGATT                         1                                 1                   Not Serviced
 Department of Homeland Security                        1                             1             2         Not Serviced
 – Immigration and Customs
 Enforcement
 BBG                                                    1                             1             2         Not Serviced
 Totals                                             100               17
           354           470         $95,961,596
* Includes Quartet Representative (Blair Mission)
** Extended Professional Associate Position (centrally funded)
***Includes security contractor
****Deputy and management officer are U.S. personal services contractors
*****Personal services contractors recruited by INL Washington


                       OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011                      29


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




     Under the supervision of an experienced management officer, a tightly organized
     management section has been able to provide satisfactory services to all customers
     despite the challenge of serious space constraints, inadequate facilities, and rapid
     growth of its customer base. Its scores on the annual International Cooperative
     Administrative Support Services (ICASS) customer satisfaction survey and on OIG
     questionnaires are consistently above regional, worldwide, and prior post averages.
     The section’s internal processes operate satisfactorily, and units collaborate to inte­
     grate supply chain management functions. The consulate general arranged an assis­
     tance visit in June 2010 by the Frankfurt Regional Support Center. Subject matter
     experts conducted a thorough review and assessment of general services, financial
     management, and human resources operations. The management section has already
     implemented many of the recommendations from that visit and is making good prog­
     ress on the others. The challenge will be to institutionalize and sustain these changes.

     The management section is functioning well but confronts significant hurdles. The
     human resources unit, having assumed responsibility for the local compensation
     plan that is common to both Consulate General Jerusalem and Embassy Tel Aviv, is
     working to resolve health and pension benefit issues that negatively affect West Bank
     identification holder employees. The recent opening of a new consular section build­
     ing at Arnona represents a great improvement in the consular workspace, but complex
     real estate issues continue to stymie initiatives intended to provide safe, secure, and
     functional facilities for other offices.

     On a higher level, the management section faces a number of challenges in defining
     and operationalizing its relationships with the growing INL and USAID presence,
     normalizing USSC office, and neighboring Embassy Tel Aviv. In the context of the
     Department’s rightsizing and consolidation imperatives, this presents an opportunity
     to minimize, if not eliminate, redundancy while still providing an effective admin­
     istrative and logistical support platform for all mission elements. To do otherwise
     would exacerbate the mission’s space problem and unduly place U.S. Government
     employees at risk. The mission is classified as a 15 percent danger-pay post.




     FINANCIAL MANAGEMENT
     The financial management unit is well organized and well managed, with smooth
     workflow and effective operational interface with its supply chain system partners
     and its customers. Most staff members are not employees of long standing but are
     nonetheless knowledgeable, capable, and functioning as a cohesive team. The latest
     ICASS customer satisfaction survey and OIG questionnaire results for financial
     management services are uniformly and significantly higher than regional bureau,
     worldwide, and prior post averages.


30                   OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




The OIG team noted a number of positive aspects to financial management opera­
tions. An administrative assistant plays a key role in receiving invoices and other
documents, tracking them with spreadsheets as they move through the approval
and payment system. This traffic management function keeps information moving
among voucher examiners, accountants, and the payroll technician and ensures that
operations run smoothly. The same assistant monitors payments and sends copies
of funds transfer notifications to the general services office (GSO) to assist in the
close-out of purchase orders. The unit has implemented other sound management
practices, such as using a purchase card to pay for utilities and making COAST
(Consolidated Overseas Accountability Support Toolbox) available to those offices
that want to track their own financial transactions.

An examination of accounts showed a number of unliquidated obligations, many
of which were related to ongoing multiple-year grants and/or projects. The unit has
devoted time and effort to reviewing and resolving unliquidated obligations in its
own program and in ICASS and public diplomacy funding, working with GSO to
determine the disposition of purchase orders. As a result, unliquidated obligation
levels have fallen from about $2.3 million as of July 30, 2010, to about $1.25 million
by the time of the OIG inspection.

Cash operations function adequately. The OIG team observed an accurate cash count
performed by the financial management officer. Records indicated reconciliations
for each of the months in calendar year 2010, as required. The Class B cashier offers
accommodation exchange. As Foreign Affairs Handbook (FAH) regulation 4 FAH-3
H-361.2 points out, this increases the cashier’s advance and the risk of receiving an
uncollectible check. Accommodation exchange also increases the workload of the
Class B cashier significantly. The same FAH citation requires a chief of mission
determination to provide this service based on specific considerations, such as the
availability of satisfactory local commercial banking facilities, automated teller
machines, or currency exchange services. The mission did not have a current chief of
mission determination on hand during the inspection.


   RECOMMENDATION 14: Consulate General Jerusalem should determine
   whether to provide accommodation exchange based on guidance provided by
   the Department of State. (Action: Consulate General Jerusalem)


After reviewing other aspects of financial management operations, the OIG team
informally recommended that the office consider implementing a number of prac­
tices that are not required but that would help reduce the workload and improve
customer service. First, the office should consider issuing prepaid debit cards to
LE staff who travel internationally on official business. Currently, the financial



                OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011   31


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




     management unit processes travel advances in cash and outside the E2 Solutions
     system, which increases workload and cash risk. Debit cards would alleviate both of
     these problems. Second, the office should deploy purchase cards to sections, such as
     public diplomacy, to facilitate procurement. Third, the office should consider using
     the Post Support Unit in Bangkok to process vouchers other than mandatory post
     assignment travel vouchers, thereby reducing its own workload and maintaining a
     contingency operations option.




     INTERNATIONAL COOPERATIVE ADMINISTRATIVE
     SUPPORT SERVICES
     The ICASS system functions adequately, although with some anomalies. The
     council chairman is a U.S. personal services contractor of USAID who is assigned to
     Embassy Tel Aviv but works 1 day per week in Jerusalem. He has served as the chair­
     man for almost 5 years, offering each year to yield his position to any other agency
     representative willing to serve. USAID plans to move some positions, including
     the chairman’s position, to Jerusalem by March 2011, and he plans to continue his
     involvement in ICASS whether as the chairman or as the agency representative.

     The ICASS council does not have, in accordance with 6 FAH-5 H-222.4, a commit­
     tee that oversees the budget process and separates detailed budgetary discussions from
     the executive-level deliberations of the council. The intent of the budget committee
     is to relieve council members of unnecessary workload and also to involve LE staff
     members in ICASS processes, as they are normally involved in council meetings only
     on an ad hoc basis.


        RECOMMENDATION 15: Consulate General Jerusalem should form an
        International Cooperative Administrative Support Services budget committee
        to carry out the responsibilities outlined in Department of State regulations.
        (Action: Consulate General Jerusalem)


     The ICASS council chairman, in consultation with his council members, is not
     preparing an annual assessment of the overall performance of each service provider
     in accordance with 6 FAH-5 H-222.3-5. This is an important aspect of the ICASS
     system, which provides feedback that serves as a basis for service improvement and
     reinforces the accountability of the providers to its constituents. The chairman said




32                   OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



that the preparation of annual assessments of management and security service
providers had lapsed over the past 2 years.


    RECOMMENDATION 16: Consulate General Jerusalem should instruct the
    International Cooperative Administrative Support Services chairperson, in coor­
    dination with voting council members, to prepare an annual assessment of service
    providers in accordance with Department of State regulations. (Action: Consulate
    General Jerusalem)




HUMAN RESOURCES
The human resources office functions efficiently to provide personnel services to
both U.S. direct-hire and LE staff. Both ICASS customer service and OIG question­
naire results were above average, and the office executes basic tasks well. The OIG
team conducted a spot check and found personnel and performance files to be neat,
orderly, and complete. Within-grade increases are generally processed in a timely
manner, and the unit’s workload is appropriately distributed.

According to its own statistics, the post has grown over the past 3 years by approxi­
mately 67 percent. During the inspection, a team from the Bureau of Overseas
Buildings Operations (OBO) conducted a staffing update using the 2009 rightsizing
study as a baseline. Preliminary information from that study suggests continued
growth from a current total of 508 positions to a projected total of 594 positions 5
years hence. The study forecasts that the number of desk positions will grow from
258 to 333.

Consulate leaders indicated that they were not seeking additional growth. The
mission has also raised the prospect of upgrading certain positions, particularly in the
security and management sections. More useful than a piecemeal approach would be
a comprehensive analysis of staffing needs in view of current and projected mission,
capabilities, and functions.


    RECOMMENDATION 17: Consulate General Jerusalem, in coordination
    with the Bureau of Near Eastern Affairs and the Bureau of Human Resources,
    should conduct a thorough analysis of its personnel needs and adjust its staff­
    ing pattern as appropriate. (Action: Consulate General Jerusalem, in coordina­
    tion with NEA and DGHR)



                OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011   33


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




     The consulate has only 18 employees who are residents of the West Bank. They
     are thus statistically underrepresented in an LE staff workforce that totals approxi­
     mately 345. The OIG team found no indication of any kind of effort to discourage
     West Bank residents from employment. The human resources office advertises
     job announcements requiring Arabic language in West Bank newspapers, on the
     mission’s Web site, and via social media. At the same time, obtaining security check­
     point permits can be problematic for West Bank residents and a job-disqualifying
     factor for some positions that require shift work (e.g., the local guard force). The
     OIG team informally recommended that the consulate focus greater attention on the
     issue of West Bank representation among its LE staff, using oversight by the human
     resources officer during the recruiting, screening, and selection processes to ensure
     that West Bank residents are not disadvantaged from employment. (See the appendix
     on joint issues at the end of this report for a formal recommendation on this subject.)


     Locally Employed Staff Committee
     The LE staff committee, composed of five members who are elected every 2 years,
     met with OIG team members and raised a number of concerns. Foremost on their
     minds is the need to build a stronger partnership with management—based on
     greater trust, collaboration, and communication—to resolve issues of common
     interest. The committee formerly met on a regular basis with mission management;
     however, the meetings have lapsed and the committee regretted that information
     now comes to them sometimes by rumor or by way of colleagues in Tel Aviv. They
     bemoaned the termination of regularly scheduled meetings with management, which
     provided a means for LE staff to maintain a continuous dialogue with management.
     The committee also expressed some disappointment that the relationship is not more
     collaborative.


        RECOMMENDATION 18: Consulate General Jerusalem should imple­
        ment a plan to establish regularly scheduled meetings between management
        and the locally employed staff committee as a means to improve communica­
        tion within the organization on issues of mutual concern. (Action: Consulate
        General Jerusalem)



     The committee brought up a number of workplace issues, the majority relating to
     salary and benefits, such as the possible establishment of a local compensation plan
     separate from the one now shared with Embassy Tel Aviv; the recent change in the
     transportation allowance; reinstatement of a program that allows loans against retire­
     ment savings accounts; and the total lack of confidence in the current retirement



34                   OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




savings account broker. The OIG team made recommendations regarding each of
these topics, which are included in the appendix on joint issues at the end of this
report. The OIG team noted that these issues are examples of those that normally
would be discussed at regularly scheduled meetings between an LE staff committee
and post management.




GENERAL SERVICES
GSO has taken on an increased workload as the consulate grows each year without
the necessary resources. GSO currently has 48 employees, which reflects only a 26
percent growth over the past 5 years as compared to the overall mission growth of 67
percent. The office also suffered from a number of vacant positions over the previous
year and now has a number of new employees still learning the system. These staffing
gaps have resulted in an overburdened office that dropped a number of administra­
tive tasks in order to meet daily demands. Customer service and communication with
the rest of the mission, already difficult due to the distance between the chancery
and GSO workspaces, also suffered.

The current supervisory general services officer is aware of the difficulties and already
had 11 new positions approved by the mission’s ICASS council shortly before the
inspection began. GSO also identified six more positions that it may submit to the
council for approval in the foreseeable future. In the meantime, a number of proce­
dures are under review to improve services and correct past problems. Some new
programs, such as the mission furniture pool discussed in the property management
section of this report, will also help to reduce the workload.

The staff located in the GSO warehouse, which includes facilities maintenance and
char force, expressed concerns about their personal safety. The warehouse is located
in a crowded industrial area with little to no police presence. Members of staff
reported numerous incidences when they were personally threatened between the
nearby parking lot and the warehouse or found their cars vandalized at the end of the
day. Although employee parking is not a U.S. Government obligation, there should
be an option that allows employees to feel that they and their personal property are
secure while traveling to and from work each day.




    RECOMMENDATION 19: Consulate General Jerusalem should develop a
    secure option for employees to use for home-to-office transportation. (Action:
    Consulate General Jerusalem)



                OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011   35


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




     Official Vehicles
     The consulate manages a large vehicle fleet of 143 vehicles, 76 of which are armored.
     GSO is responsible for the registration and maintenance of the entire fleet but
     controls only the regular use of 36 vehicles. Another 38 vehicles, mostly armored,
     are used by the regional security office and security contractors. An additional 62
     vehicles are dedicated to particular offices for their regular use. Many offices have
     hired their own drivers. The INL and USSC offices have also been leasing vehicles
     over the past few years to meet their individual needs.

     In spite of the large number of dedicated vehicles, there is a high demand for services
     from the GSO motor pool. The consulate provides a number of shuttles for home­
     to-office commuting, including a shuttle for LE staff members who live in the West
     Bank and cannot drive their own vehicles into West Jerusalem. Because of security
     concerns, the motor pool also provides bussing to schools for children of American
     employees. To provide service before and after office hours, the 14 motor pool
     drivers are scheduled on four overlapping shifts throughout the day. Nevertheless,
     the demands for transportation make it difficult to maintain the flexibility needed
     for visitor support and unexpected needs. GSO is often unable to meet requests
     for motor pool transportation during commuting hours because the drivers are all
     making other authorized trips. Although many of these unaccommodated requests
     can be handled by taxis, there is a lack of available transportation for West Bank
     employees who are required to arrive at work early or depart late due to official
     duties.


        RECOMMENDATION 20: Consulate General Jerusalem should revise
        its vehicle policy to include a prioritized schedule for motor pool dispatch
        that reflects the official business needs of all sections and allocates resources
        accordingly. (Action: Consulate General Jerusalem)


     The consulate has purchased a number of U.S. brand vehicles on the local Israeli
     market. Authorization must be obtained from the Bureau of Administration before
     any vehicle, including ICASS vehicles, is purchased offshore. There was no record
     of an authorization for these local vehicles purchases. The OIG team informally
     recommended that the consulate confirm that they have approval from the Bureau of
     Administration for these purchases and submit requests for approval as needed in the
     future.

     GSO drafted a new mission vehicle policy shortly before the inspection and included
     some clarification on the interagency use of vehicles within the consulate. The OIG
     team made a couple of informal recommendations to strengthen the vehicle policy.



36                   OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




Records on the use of official vehicles at Consulate General Jerusalem are inconsis­
tent. GSO relies on a GPS system that tracks the exact location of each vehicle and
driver as well as the time and mileage of each trip. The office does not include all of
this information in either the required OF-108 form or the Department-approved
WebPASS (Web Post Administrative Software Suite) system, and shuttles are not
entered into the system at all. Other offices that control vehicles will send informa­
tion to GSO for inclusion, but the mission does not use procedures to submit this
information consistently or in compliance with Department record keeping require­
ments. None of the mission’s recording systems identifies trips as official use or other
forms of authorized use of the vehicles. The result is that no one record system has a
complete set of data to use for oversight and management of the vehicles.


    RECOMMENDATION 21: Consulate General Jerusalem should implement
    procedures so that all required vehicle data are entered into an approved record
    keeping system. (Action: Consulate General Jerusalem)



Maintenance and Upkeep
The GSO warehouse includes a small vehicle repair shop to make minor repairs,
and major repairs are contracted out to a number of local auto mechanics. There is
a small stock of parts and supplies kept on site for use. The supplies are not included
in the mission’s inventory records but are instead tracked with informal records and
periodic spot checks. These supplies and parts are accountable property that must be
included in the inventory records pursuant to 14 FAM 414.


    RECOMMENDATION 22: Consulate General Jerusalem should implement
    procedures to maintain control of the vehicle maintenance supplies and parts
    stock. (Action: Consulate General Jerusalem)


The consulate lacks adequate parking for official vehicles. The GSO warehouse site
has space for only about a dozen vehicles, and it is difficult to navigate. The mission
parks a number of vehicles on the street outside the old consular section on Nablus
Road. A particular concern is the fully armored vehicles, which should have covered
parking to protect them against damage from sunlight but instead are parked in an
open-air lot.




                OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011   37


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





         RECOMMENDATION 23: Consulate General Jerusalem should find
         secure, covered parking for the fully armored vehicles in the mission vehicle
         fleet. (Action: Consulate General Jerusalem)


     The heavy use of fully armored vehicles in Jerusalem results in the need to replace
     the vehicles sooner than at most missions. Vehicles taken into the West Bank wear
     down quickly due to the need to drive in undeveloped, steeply hilled terrain. The
     consulate has no mechanism to forecast the replacement cycle for these vehicles and
     relies on opportunities to obtain replacement vehicles from unexpected funding. This
     leaves the mission at risk of falling short of resource requirements if a number of the
     vehicles fail in a short period of time.


         RECOMMENDATION 24: Consulate General Jerusalem, in coordina­
         tion with the Bureau of Diplomatic Security, should develop a life cycle
         management plan for its fully armored vehicles. (Action: Consulate General
         Jerusalem, in coordination with DS)



     Procurement
     The procurement unit generally runs an effective shop and works closely with the
     different offices in the mission to prepare an enormous number of procurement
     orders (more than 90 requests in just the first month of the fiscal year); however, the
     purchase order files are not consistently closed out in a timely manner. The procure­
     ment section uses the Department’s eServices and WebPASS software packages to
     manage the orders. The notice of final payment from the financial management
     section comes in as an email with an attached copy of the payment voucher, and the
     procurement clerks then need to close the orders out in the paper files. This final step
     is often lost in the daily rush to follow up on new requests.


         RECOMMENDATION 25: Consulate General Jerusalem should establish
         and implement procedures so that all procurement orders are closed out in a
         timely manner. (Action: Consulate General Jerusalem)




38                   OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




Property Management
The property management clerks recently had a number of problems with the inven­
tory software for both expendable and nonexpendable property, which resulted in
unreliable stock numbers. The IM section helped to correct these software problems,
and the consulate will be conducting a full physical inventory in December 2010 to
use as a future baseline. The mission is also missing a number of housing inventories
from the files. GSO revised the office procedures to ensure that new occupants
return the inventories in a timely manner. The OIG inspection team informally
recommended that GSO conduct a full review of the housing inventories to deter­
mine that none are missing for current occupants.

The warehouse space itself is inadequate for the consulate’s needs. Although the
inspection team commended the staff for making the best possible use of the space,
the building simply cannot accommodate all of the functions needed for a proper
warehouse. Further discussion about the building itself is included in the facilities
section in this report and in the classified annex.

The mission can take some steps to improve the warehouse in its current location. In
particular, the warehouse areas are not entirely secured against unauthorized person­
nel. According to 14 FAM 413.7 a. (8), “[a]ccess to the warehouse must be limited to
those persons who have a need to enter and security locks/codes must be changed in
accordance with standard procedures.”


    RECOMMENDATION 26: Consulate General Jerusalem should install
    security locks and fencing in the warehouse as needed to secure the property
    stored within. (Action: Consulate General Jerusalem)




    RECOMMENDATION 27: Consulate General Jerusalem should establish
    and implement a procedure that limits authorized entry to the warehouse
    areas to identified individuals with accountability for the property. (Action:
    Consulate General Jerusalem)


The consulate has already taken a step to reduce the need for storage by implement­
ing a required mission furniture pool. The ICASS council voted unanimously in
favor of the creation of this pool shortly before the inspection. GSO anticipates it will
see cost savings from the reduced need to store furniture in order to meet different
agencies’ needs, lower labor costs associated with moving furniture, and less wear and
tear on the furniture itself.


                OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011   39


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




     Housing

     Consulate General Jerusalem’s housing needs are growing each year in a difficult
     housing market. The pool of houses grew from 40 in 2007 to 75 at the time of the
     inspection, and the mission anticipates that it will need to grow to at least 90 by the
     end of 2011. The housing section faces the usual challenges of finding affordable
     housing that meets Department standards, compounded by the additional challenge
     of finding homes in East Jerusalem for PD and other officers. The consulate deems
     it a priority to have some officers housed in East Jerusalem to represent the mission;
     however, the local police and fire departments cannot enter some areas without
     military escort, and a number of other neighborhoods are frequently inaccessible
     during security crises, leaving only a small number of residential areas available for
     the mission. In spite of these difficulties, there are a number of officers housed in the
     area.

     Mission personnel gave the housing maintenance program better than average scores
     in the inspection survey, but there were a number of complaints about the current
     make-ready process. The GSO and facilities maintenance section are in the process
     of reviewing the make-ready program and making adjustments; however, due to the
     changes in office structure over the 2010 summer season, they have decided to wait
     until the winter to revise the procedures.

     The residential lease files were generally up to date but did not include related
     records, such as purchase orders and receipts, work orders, residential inventories,
     and property descriptions, as required by 15 FAM 352. These records are essential
     for oversight of property management and for keeping a complete history of the
     residences.


         RECOMMENDATION 28: Consulate General Jerusalem should establish
         and implement procedures so that all residential lease files contain all relevant
         documentation. (Action: Consulate General Jerusalem)



     Official Residences
     The first two floors of the principal officer’s residence, once a classic mansion, are
     now reserved for the consul general and his family, and the stories above are used
     for controlled access area (CAA) office space. Further development of the residence
     for office use is limited by municipal zoning restrictions, and it shall continue as the
     residence for the foreseeable future. The residence does not have an abundance of




40                    OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




representation space indoors but is an appropriate setting for small events, and a large
outdoor garden provides additional space.

An OBO survey team identified the need to replace the roof of the residence in
2005, but there are still no concrete plans to initiate the project in the near future. In
the meantime, the consulate has patched a number of weak points in the roof. The
sealant of the roof is visibly rotting away, potentially exposing the structure to serious
damage.


    RECOMMENDATION 29: The Bureau of Overseas Buildings Operations
    should replace the roof of the principal officer’s residence in Jerusalem.
    (Action: OBO)




FACILITIES
Consulate General Jerusalem is housed in a number of buildings, all with unique
issues. A team from OBO visited Jerusalem during the inspection to conduct a space
utilization review and will be following up with an organization plan to take into
account all of the annexes. There is a finite amount of CAA office space that will be
difficult to reorganize to achieve any greater efficiency. The main chancery occupies
the floors above the consul general’s residence. Another building on the lot provides
CAA space for the regional security office and the economic section. These are the
only two buildings that are cleared for CAA offices. Finding ways to increase this
space is the biggest space-related challenge for the consulate.

The consulate general leases the lot next door, which includes a former monastery
of the Lazarist order. This has provided a great deal of unclassified workspace but is
already crowded. Zoning restrictions limit the possibilities for further development.
(b)(2)(b)(5)

(b)(2)(b)(5)




                 OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011   41


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     (b)(2)(b)(5)




         RECOMMENDATION 30: The Bureau of Overseas Buildings Operations,
         in coordination with Consulate General Jerusalem and the Bureau of Near
         Eastern Affairs, should prepare a written plan for the future of the Arnona
         site in Jerusalem. (Action: OBO, in coordination with Consulate General
         Jerusalem and NEA)


     One of the primary assets of the Arnona site is the amount of parking available.
     There are two lots that can be used by official and employee vehicles, and a covered
     garage for the public. On a number of visits, the inspection team noted that these
     parking lots were not being fully utilized and informally recommended that the
     consulate use them to resolve some of its parking difficulties. (See the sections on
     official vehicles and the warehouse in this report.)

     With the move into the Arnona site finally completed, the consulate planned to close
     the former consular building on Nablus Road and use another site, known as the
     Amawi building, as the mission’s East Jerusalem platform. A number of permit and
     title issues with the Amawi building have delayed the consulate in occupying it. In
     the meantime, the consulate renewed the lease of the Nablus Road building for an
     additional year and will renovate it and continue to use it as a platform for (b)(2)(b)(5)
     activities in East Jerusalem. The mission is also leasing temporary office space for
     USAID, INL, and USSC. Once the permit issues are resolved for the Amawi build-
     ing, OBO has an extensive renovation plan for that building that is estimated to cost




42                    OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



$11 million. The consulate has a simpler proposal that would take advantage of the
existing structure’s design and cost only $5 million.


    RECOMMENDATION 31: The Bureau of Overseas Buildings Operations, in
    coordination with Consulate General Jerusalem, should revise its renovation plan
    for the Amawi building to maximize cost effectiveness and minimize the time to
    occupancy. (Action: OBO, in coordination with Consulate General Jerusalem)


The warehouse, as discussed in the general services section of this report, is inad-
equate for the consulate general’s needs. It currently houses the entire GSO, a
carpentry shop, a small vehicle repair shop, and parking for approximately a dozen
vehicles. It also warehouses all of the mission’s stored property. The design of the
building makes it difficult to use it fully for all of these functions. The warehouse
floors are not climate controlled or sealed against the outdoors and thus cannot
protect the stored property. (b)(2)(b)(5)
                   A further discussion, with a recommendation to find new premises,
is included in the classified annex.


Maintenance
The maintenance unit was recently split from GSO and is now under the supervision
of a facilities manager. The consulate is reviewing a number of procedures in response
to this change. In particular, all work orders are currently submitted to the facilities
Work Order for Windows system, and then an employee must sort through them
every morning to distribute them to the correct units. The OIG team informally
recommended that the consulate contact other missions for advice on procedures to
clarify the request system for both end users and the facilities and general services
sections.

The consulate stores a very limited amount of expendable supplies for the mainte-
nance section and generally relies on blanket purchase agreements to obtain supplies
as needed. The supplies that are kept on hand are not included in the mission’s
inventory records. These supplies are accountable property that must be included in
the inventory records according to the requirements in 14 FAM 414.


    RECOMMENDATION 32: Consulate General Jerusalem should establish
    and implement procedures to maintain control of the facilities supplies stock.
    (Action: Consulate General Jerusalem)




                OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011   43


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




     INFORMATION MANAGEMENT AND INFORMATION
     SECURITY
     Consulate General Jerusalem’s IM program meets the mission’s basic information
     processing and communication needs but falls short in establishing efficient and
     effective policies and processes for managing the program. Lengthy American staff­
     ing gaps resulted in a serious lack of consistency in leadership and program manage­
     ment. IM staff focused on meeting day-to-day operational needs and had neither the
     time nor the resources to devote to planning and establishing processes.

     The program operated for over 18 months without an information management
     officer (IMO). During that time first- and second-tour IM specialists assumed the
     information management officer role while also performing their primary duties of
     managing basic IM operations, which consist of classified and unclassified networks,
     classified and unclassified pouch, radio, telephone, Dedicated Internet Network
     (DIN), and mail operations. The IM specialists were assisted by long-term tempo­
     rary assignments from the Regional Information Management Center in Frankfurt
     and when-actually-employed staff from the Bureau of Information Resource
     Management.

     The IM unit is authorized four direct-hire American positions. At the time of the
     inspection, only two of the four were filled. One of the vacant positions is scheduled
     to be filled in January 2011. There are five LE systems administrators for the unclas­
     sified network and four LE mail room staff supporting the direct hires.

     The OIG team identified deficiencies in key areas, including (b)(2)(b)(5)
                           incomplete and missing standard operation procedures; an
     incomplete laptop inventory; unauthorized DINs; nonstandard unclassified server
     and telephone frame rooms; (b)(2)(b)(5)


                          The OIG team also counseled IM staff on issues such as media
     labeling, systems maintenance log keeping, hardware and software disposal at the
     recently vacated Post 2 annex, and Information Technology Change Control Board
     functions. The unit corrected some of these deficiencies during the inspection.


     Standard Operating Procedures
     The consulate has not established and documented required standard operat­
     ing procedures for managing its unclassified network as required by 5 FAM 867.
     Available documents are incomplete and do not address the day-to-day operations
     of managing the network, especially systems maintenance logs, systems backup and



44                   OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED




   recovery, and account and shared resources management. As noted previously, the
   absence of an information management officer caused staff to focus on meeting
   day-to-day operational needs rather than on establishing correct procedures. The lack
   of standard operating procedures for imaging and deploying workstations caused the
   mission to connect nonstandard workstation on the unclassified network. This was
   discovered when the OIG team scanned the mission’s workstations. The IM staff
   quickly brought the workstations up to standard, but the process still needs to be
   documented.


       RECOMMENDATION 33: Consulate General Jerusalem should establish 

       and document standard operating procedures for managing the unclassified 

       network and develop a process for keeping these procedures current. (Action: 

       Consulate General Jerusalem)





(b)(2)(b)(5)




       RECOMMENDATION 34: (b)(2)(b)(5)




       RECOMMENDATION 35: (b)(2)(b)(5)
                          





                   OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011   45


                 SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED


     (b)(2)(b)(5)




            RECOMMENDATION 36: (b)(2)(b)(5)




       (b)(2)(b)(5)




            RECOMMENDATION 37: (b)(2)(b)(5)




       (b)(2)(b)(5)




            RECOMMENDATION 38: (b)(2)(b)(5)




46                    OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


                      SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED




   RECOMMENDATION 39: (b)(2)(b)(5)




Unclassified Server Rooms
The consulate has four unclassified server rooms, only one of which complies with
Department standards. Server rooms in the Lazarist, Post 1, and GSO warehouse
buildings have network cables that are neither labeled appropriately nor properly
organized. Some cables are routed across passageways and comingled with power
cords. The server rooms are also used for storing excess computer equipment and old
furniture. Ongoing projects and competing priorities have left the IT staff with mini-
mal time for cabling work. Department regulation 5 FAH-9 H-382 established the
standard to provide a uniform identification process for infrastructure and equipment
components to be labeled uniquely and legibly. Inadequately documented network
cabling potentially hampers the network staff’s ability to repair network connectivity
problems and increases the possibility of introducing unauthorized devices into the
network.


   RECOMMENDATION 40: Consulate General Jerusalem, in coordina-
   tion with the Bureau of Information Resource Management, should orga-
   nize and label network cabling in the unclassified server rooms according to
   Department of State regulations. (Action: Consulate General Jerusalem, in
   coordination with IRM)


Server rooms should also not be used to store excess equipment and furniture. The
OIG team made an informal recommendation to dispose of all unused IM equip-
ment and remove old furniture from the server rooms.

The OIG team reviewed the need for four unclassified server rooms and determined
that the Post 1 server room appears redundant, as there is another in the Lazarist
building. The Post 1 server room seems to be a legacy, as it was the main server room
prior to the establishment of the Lazarist server room. The Post 1 servers now support
fewer than 15 computer users in Post 1. (b)(2)(b)(5)




                OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011   47


              SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





         RECOMMENDATION 41: Consulate General Jerusalem should consoli­
         date the servers in the Post 1 server room with those in the Lazarist server
         room. (Action: Consulate General Jerusalem)


     Power supply panels that supply the server rooms in the Lazarist and GSO buildings
     are not labeled to indicate the equipment served by the panels. Marking power supply
     panels assists systems staff in isolating power issues and in systems availability plan­
     ning. According to 12 FAM 629.4-3 a., server room power distribution panels must
     have labels.


         RECOMMENDATION 42: Consulate General Jerusalem should label the
         unclassified power supply panels in the Lazarist and general services office
         buildings to indicate the equipment served by those panels. (Action: Consulate
         General Jerusalem)



     Dedicated Internet Networks
     The consulate does not have a full account and description of the configurations,
     licensing, and usage of its DINs. DINs must be registered with the Department’s
     Information Technology Configuration Change Control Board. Competing priori­
     ties and the focus on day-to-day operational needs precluded IM staff from meeting
     the DIN operation guidelines outlined in 5 FAM 872. To establish a DIN, a post
     must show a clear need that cannot be met by the unclassified network. The justi­
     fication, along with configuration and cost requirements, must be submitted to the
     Department’s Information Technology Configuration Change Control Board for
     approval. If not appropriately managed, DINs expose government-owned computers
     to malicious hackers.


         RECOMMENDATION 43:  Consulate General Jerusalem should inventory 

         its Dedicated Internet Network operations and register them with the Bureau

         of Information Resource Management. (Action: Consulate General Jerusalem)      





48                   OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED





    RECOMMENDATION 44:  Consulate General Jerusalem should establish
    and document standard operating procedures for Dedicated Internet Network
    management. (Action: Consulate General Jerusalem)  



Telephone Frame Rooms and Distribution Frames
The telephone switch and main distribution frame room in the Post 1 annex is disor­
ganized. Excess equipment and cables are strewn about, and the telephone wiring is
not labeled in accordance with 5 FAH-9 H-383 and industry standards. The current
condition of the server room makes it difficult to trace lines and to perform repairs.
Rewiring these areas is beyond the scope of the IM staff at post.


    RECOMMENDATION 45: Consulate General Jerusalem, in coordination
    with the Bureau of Information Resource Management, should rewire and
    correctly label the main and independent frame rooms at the Post 1 annex.
    (Action: Consulate General Jerusalem, in coordination with IRM)      


The consulate’s Post 1 annex has a telephone frame room that is colocated with the
local service provider’s demarcation area. The room is not suitable for partitioning,
and relocation of either the telephone switch and associated infrastructure or the
local service provider’s interface equipment and cabling is not feasible. The consulate
should ensure that a visitor’s log book is used to record the time and purpose of all
entries to that room by consulate staff and commercial service providers who are not
accorded nonescorted entry privileges. The OIG team informally recommended that
the mission institute access log control for the room.

The recently vacated Post 2 annex telephone frame room has a Nortel Option 11C
phone switch that should be removed. Some switch cards and other related equip­
ment can be retained as spares for the consulate’s Nortel Option 11C switch at the
Post 1 annex. Associated tie lines provided by the local service provider between
the Post 2 and Post 1 switches should be canceled and replaced with an appropriate
number of standard, stand-alone telephone lines for use until the facility is perma­
nently removed from the consulate’s property inventory.




                OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011   49


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




         RECOMMENDATION 46: Consulate General Jerusalem, in coordination
         with the Bureau of Information Resource Management, should dispose of the
         Nortel switch at the Post 2 annex. (Action: Consulate General Jerusalem, in
         coordination with IRM)




         RECOMMENDATION 47: Consulate General Jerusalem should cancel the
         telephone tie lines between the Post 1 and Post 2 annexes. (Action: Consulate
         General Jerusalem)


     (b)(2)(b)(5)




         RECOMMENDATION 48: (b)(2)(b)(5)

                                                                                                                 



     Call Accounting
     The telephone call accounting system, which had been inoperative for an unspecified
     amount of time, was recently repaired. The system is not programmed, however, with
     the necessary post-specific information to make it an effective accounting tool in
     accordance with 5 FAH-2 H-621 and 622 guidelines.


         RECOMMENDATION 49: Consulate General Jerusalem should load its
         call accounting system with the necessary data required to reestablish call
         accounting procedures. (Action: Consulate General Jerusalem)      




50                   OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




Mail Operations
Consulate General Jerusalem’s mail operation is supported by Embassy Tel Aviv’s
Army Post Office/Diplomatic Post Office system. Limited post office window
service, compounded by other internal personnel issues, has adversely affected
the quality of mail service that Jerusalem receives from Tel Aviv. ICASS customer
satisfaction and OIG quality of life surveys rated the mail service below regional,
worldwide, and prior post averages. To improve service quality, the consulate general
has initiated the process to establish its own Diplomatic Post Office and become
independent from Tel Aviv. Although the consulate general was receiving free mail
service from Embassy Tel Aviv due to the lack of a financial mechanism that allows
one post to bill another for services, establishing a Diplomatic Post Office will create
a new cost center for Consulate General Jerusalem. With the establishment of the
Diplomatic Post Office in Jerusalem, there will be no business need for Embassy Tel
Aviv to continue to provide mail service to Consulate General Jerusalem. The OIG
team determined that the cost difference between establishing a Diplomatic Post
Office in Jerusalem and paying Embassy Tel Aviv for upgraded service was negligible.

Consulate General Jerusalem has adequate mail screening procedures. Because the
Post 1 annex is considered by the city municipality to be a historical property, and for
aesthetic reasons, the mail screening container is located across the city at the Arnona
annex. This arrangement causes internal delivery delays of up to 24 hours. The
OIG team made an informal recommendation for the mission to relocate the mail
screening container to Post 1 to expedite internal local mail handling procedures and
delivery services.




                OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011   51


               SENSITIVE BUT UNCLASSIFIED
     SENSITIVE BUT UNCLASSIFIED





52   OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


     SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED




QUALITY OF LIFE


COMMUNITY LIAISON OFFICE
Consulate General Jerusalem’s community liaison office (CLO) ranked well above
the worldwide average on the OIG’s workplace and quality of life surveys. In fact, 3
of the 10 highest scores on that survey pertained to CLO activities and the sponsor­
ship program. CLO activities receive the full support of post management. The
full-time community liaison office coordinator and the part-time assistant play an
integral role in the emergency action committee, the housing board, the country
team, and the community association.

CLO activities range from sports days that bring together youth from the consulate
general with youth from the West Bank, to beer festivals showcasing local breweries,
to Thanksgiving meals for unaccompanied post personnel. Whenever possible, CLO
partners events with the community association, which has funds at its disposal, so
that activities are often free to the participants. Because it is attentive to all sectors of
the consulate general’s community, the CLO has a positive impact on post morale.




EQUAL EMPLOYMENT OPPORTUNITY
Consulate General Jerusalem has two EEO coordinators, each working at a different
site. Most requests for information and advice come from LE staff, but the consulate
has no LE staff EEO liaisons. The EEO coordinators have asked the Office of Civil
Rights for guidance on establishing LE staff liaisons. The OIG team suggested that
they also contact Embassy Tel Aviv, which has just conducted training for its 10 LE
liaisons, and replicate their efforts.

Given the intersection of three cultures in Jerusalem and the attendant variation in
communication styles, employees sometimes interpret communication disconnects
as EEO problems. The EEO coordinators have a vital role to play in explaining
the EEO program to the staff as a whole and in serving as a discreet conduit to
management when training on intercultural communication might be needed. The
OIG team informally recommended that the EEO counselors conduct periodic
EEO outreach sessions to supplement the annual management notices on the EEO
program and the workplace posters and that the consulate general amend its intranet
Web site to feature EEO information on its home page rather than as a subset of the
human resources section.


                 OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011   53


                SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




     HEALTH UNIT

     The health unit has moved into renovated and much improved space since the last
     OIG inspection in 2005, when it was cited for its very poor and unhealthy physical
     facility. The new suite includes a waiting room, examination rooms, and one office.
     Ideally, it also would include additional staff workstations; however, given the current
     circumstances and overall mission space constraints, it suffices.

     The unit acts as a primary care facility for mission personnel, with almost 6,500
     office calls in 2009. A review of records indicated that it is adequately tracking
     funding associated with examinations and hospitalizations and is coordinating with
     the financial management unit to deobligate unused portions. Scores for the health
     unit on the most recent ICASS customer satisfaction survey and OIG questionnaire,
     however, were well below regional, worldwide, and prior post averages. The OIG
     team reviewed the low scores with the nurse practitioner in charge of the unit, who
     indicated that she is trying to improve communication with the community. The
     OIG team informally recommended that the mission use comments from the latest
     ICASS customer satisfaction survey to improve this service.




     EMPLOYEE ASSOCIATION
     The size and scope of the mission’s employee association operations suits the post’s
     current needs. Activities consist of memorabilia sales, vending machine sales, and a
     small snack bar located at Post 1, which generate enough revenue to remain profitable
     and support CLO events. The association has no plans to expand into other services,
     a prudent and appropriate stance at this time. During the survey phase of the inspec­
     tion, the Office of Commissary and Recreation Affairs identified a number of lapses
     in reporting. The association had resolved all outstanding reports by the end of the
     inspection.




54                   OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


                    SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED




MANAGEMENT CONTROLS


The OIG team determined that, with a few exceptions, consulate general manage­
ment controls functioned well. No recommendations are necessary. The mission’s FY
2010 chief of mission annual management control statement of assurance indicated
appropriate recognition of the objectives and responsibilities associated with the
program. It also highlighted two areas of weakness: review and approval of telephone
and BlackBerry® bills, and connection of unauthorized devices to the OpenNet. In
both cases, the mission developed and implemented corrective action plans.

The OIG team noted other management controls deficiencies, particularly in the
consular and management sections, and addresses them in sections of this report
pertaining to each functional unit.




                OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011   55


              SENSITIVE BUT UNCLASSIFIED
     SENSITIVE BUT UNCLASSIFIED





56   OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


     SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




RECOMMENDATIONS


RECOMMENDATION 1: Consulate General Jerusalem should develop and imple­
ment a plan to provide entry-level officers with mentor pairings and well-defined
opportunities to support official visits, speak in public fora, produce written reports,
and participate in representational events. (Action: Consulate General Jerusalem)


RECOMMENDATION 2: The Bureau of Near Eastern Affairs should cease
requesting, and the Bureau of Human Resources should cease granting, language
waivers for language-designated positions in the political section of Consulate
General Jerusalem, acting to redesignate all positions in that section as mid-level.
(Action: NEA, in coordination with DGHR)


RECOMMENDATION 3: The Bureau of Near Eastern Affairs should improve
coordination between the Office of the U.S. Security Coordinator and other
elements of Consulate General Jerusalem by creating a permanent position for a
political-military officer in the political section of Consulate General Jerusalem and
not by assigning temporary duty political advisers to the Office of the U. S. Security
Coordinator. (Action: NEA)


RECOMMENDATION 4: Consulate General Jerusalem should support the U.S.
security coordinator in his review of Palestinian training programs by preparing a
briefing on political considerations necessary for a successful program, including
the consulate general’s expectations for coordination, and present the briefing to all
new personnel assigned to the Office of the U. S. Security Coordinator. (Action:
Consulate General Jerusalem)


RECOMMENDATION 5: The Bureau of Near Eastern Affairs should draw up
memoranda of agreement laying out procedures for the conduct and protection of the
Office of the U.S. Security Coordinator staff not under chief of mission authority.
(Action: NEA)


RECOMMENDATION 6: Consulate General Jerusalem should draw up and
carry out an expedited training plan for new members of its Bureau of International
Narcotics and Law Enforcement Affairs office. (Action: Consulate General
Jerusalem)



                OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011   57


               SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




     RECOMMENDATION 7: Consulate General Jerusalem, in coordination with the
     Bureau of Near Eastern Affairs and the Bureau of International Narcotics and Law
     Enforcement Affairs, should review the vehicle needs of the Office of the Bureau
     of International Narcotics and Law Enforcement Affairs and the Office of the U.S.
     Security Coordinator and purchase the number of vehicles needed in order to discon­
     tinue the practice of long-term leasing. (Action: Consulate General Jerusalem, in
     coordination with NEA and INL)


     RECOMMENDATION 8: Consulate General Jerusalem should send local media
     reaction reports immediately, as described in Department of State regulations, with­
     out delaying their transmission for high-level clearance. (Action: Consulate General
     Jerusalem)


     RECOMMENDATION 9: Consulate General Jerusalem should revise its electronic
     scheduling system for security escorts to allow designated locally employed staff
     members to add or amend requests for security escorts for official travel to the West
     Bank. (Action: Consulate General Jerusalem)


     RECOMMENDATION 10: Consulate General Jerusalem, in coordination with
     Embassy Tel Aviv, should reevaluate its system for escorting official U.S. Government
     exchange grantees to and from Gaza, clarify Israeli Government requirements, and
     develop alternate plans under which employees other than American diplomats could
     provide routine escort duty. (Action: Consulate General Jerusalem, in coordination
     with Embassy Tel Aviv)


     RECOMMENDATION 11: Consulate General Jerusalem should update the locally
     employed staff position descriptions in the two visa units and submit the updated
     position descriptions for Computer-Aided Job Evaluation review. (Action: Consulate
     General Jerusalem)


     RECOMMENDATION 12: Consulate General Jerusalem should cease routinely
     requiring certified translations of Hebrew and Arabic civil documents and current
     year tax returns for immigrant visa processing and inform the National Visa Center
     to adjust its checklist accordingly. (Action: Consulate General Jerusalem)


     RECOMMENDATION 13: Consulate General Jerusalem should review its panel
     physician program and reduce the number of approved physicians in Israel and
     Jerusalem to comply with guidance in the Foreign Affairs Manual. (Action: Consulate
     General Jerusalem)



58                   OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


                   SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




RECOMMENDATION 14: Consulate General Jerusalem should determine
whether to provide accommodation exchange based on guidance provided by the
Department of State. (Action: Consulate General Jerusalem)


RECOMMENDATION 15: Consulate General Jerusalem should form an
International Cooperative Administrative Support Services budget committee to
carry out the responsibilities outlined in Department of State regulations. (Action:
Consulate General Jerusalem)


RECOMMENDATION 16: Consulate General Jerusalem should instruct the
International Cooperative Administrative Support Services chairperson, in coordina­
tion with voting council members, to prepare an annual assessment of service provid­
ers in accordance with Department of State regulations. (Action: Consulate General
Jerusalem)


RECOMMENDATION 17: Consulate General Jerusalem, in coordination with the
Bureau of Near Eastern Affairs and the Bureau of Human Resources, should conduct
a thorough analysis of its personnel needs and adjust its staffing pattern as appropri­
ate. (Action: Consulate General Jerusalem, in coordination with NEA and DGHR)


RECOMMENDATION 18: Consulate General Jerusalem should implement a
plan to establish regularly scheduled meetings between management and the locally
employed staff committee as a means to improve communication within the organi­
zation on issues of mutual concern. (Action: Consulate General Jerusalem)


RECOMMENDATION 19: Consulate General Jerusalem should develop a secure
option for employees to use for home-to-office transportation. (Action: Consulate
General Jerusalem)


RECOMMENDATION 20: Consulate General Jerusalem should revise its vehicle
policy to include a prioritized schedule for motor pool dispatch that reflects the
official business needs of all sections and allocates resources accordingly. (Action:
Consulate General Jerusalem)


RECOMMENDATION 21: Consulate General Jerusalem should implement proce­
dures so that all required vehicle data are entered into an approved record keeping
system. (Action: Consulate General Jerusalem)




                OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011   59


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




     RECOMMENDATION 22: Consulate General Jerusalem should implement
     procedures to maintain control of the vehicle maintenance supplies and parts stock.
     (Action: Consulate General Jerusalem)


     RECOMMENDATION 23: Consulate General Jerusalem should find secure,
     covered parking for the fully armored vehicles in the mission vehicle fleet. (Action:
     Consulate General Jerusalem)


     RECOMMENDATION 24: Consulate General Jerusalem, in coordination with the
     Bureau of Diplomatic Security, should develop a life cycle management plan for its fully
     armored vehicles. (Action: Consulate General Jerusalem, in coordination with DS)


     RECOMMENDATION 25: Consulate General Jerusalem should establish and
     implement procedures so that all procurement orders are closed out in a timely
     manner. (Action: Consulate General Jerusalem)


     RECOMMENDATION 26: Consulate General Jerusalem should install security
     locks and fencing in the warehouse as needed to secure the property stored within.
     (Action: Consulate General Jerusalem)


     RECOMMENDATION 27: Consulate General Jerusalem should establish and
     implement a procedure that limits authorized entry to the warehouse areas to identi­
     fied individuals with accountability for the property. (Action: Consulate General
     Jerusalem)


     RECOMMENDATION 28: Consulate General Jerusalem should establish and
     implement procedures so that all residential lease files contain all relevant documen­
     tation. (Action: Consulate General Jerusalem)


     RECOMMENDATION 29: The Bureau of Overseas Buildings Operations should
     replace the roof of the principal officer’s residence in Jerusalem. (Action: OBO)


     RECOMMENDATION 30: The Bureau of Overseas Buildings Operations, in
     coordination with Consulate General Jerusalem and the Bureau of Near Eastern
     Affairs, should prepare a written plan for the future of the Arnona site in Jerusalem.
     (Action: OBO, in coordination with Consulate General Jerusalem and NEA)




60                   OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



RECOMMENDATION 31: The Bureau of Overseas Buildings Operations, in coor-
dination with Consulate General Jerusalem, should revise its renovation plan for the
Amawi building to maximize cost effectiveness and minimize the time to occupancy.
(Action: OBO, in coordination with Consulate General Jerusalem)


RECOMMENDATION 32: Consulate General Jerusalem should establish and
implement procedures to maintain control of the facilities supplies stock. (Action:
Consulate General Jerusalem)


RECOMMENDATION 33: Consulate General Jerusalem should establish and
document standard operating procedures for managing the unclassified network and
develop a process for keeping these procedures current. (Action: Consulate General
Jerusalem)


RECOMMENDATION 34: (b)(2)(b)(5)




RECOMMENDATION 35: (b)(2)(b)(5)




RECOMMENDATION 36: (b)(2)(b)(5)




RECOMMENDATION 37: (b)(2)(b)(5)




RECOMMENDATION 38: (b)(2)(b)(5)




RECOMMENDATION 39: (b)(2)(b)(5)




                OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011   61


               SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




     RECOMMENDATION 40: Consulate General Jerusalem, in coordination
     with the Bureau of Information Resource Management, should organize and label
     network cabling in the unclassified server rooms according to Department of State
     regulations. (Action: Consulate General Jerusalem, in coordination with IRM)


     RECOMMENDATION 41: Consulate General Jerusalem should consolidate the
     servers in the Post 1 server room with those in the Lazarist server room. (Action:
     Consulate General Jerusalem)


     RECOMMENDATION 42: Consulate General Jerusalem should label the unclas­
     sified power supply panels in the Lazarist and general services office buildings to
     indicate the equipment served by those panels. (Action: Consulate General Jerusalem)


     RECOMMENDATION 43:  Consulate General Jerusalem should inventory
     its Dedicated Internet Network operations and register them with the Bureau of
     Information Resource Management. (Action: Consulate General Jerusalem)      


     RECOMMENDATION 44:  Consulate General Jerusalem should establish and
     document standard operating procedures for Dedicated Internet Network manage­
     ment. (Action: Consulate General Jerusalem)  


     RECOMMENDATION 45: Consulate General Jerusalem, in coordination with
     the Bureau of Information Resource Management, should rewire and correctly label
     the main and independent frame rooms at the Post 1 annex. (Action: Consulate
     General Jerusalem, in coordination with IRM)      


     RECOMMENDATION 46: Consulate General Jerusalem, in coordination with
     the Bureau of Information Resource Management, should dispose of the Nortel
     switch at the Post 2 annex. (Action: Consulate General Jerusalem, in coordination
     with IRM)


     RECOMMENDATION 47: Consulate General Jerusalem should cancel the tele­
     phone tie lines between the Post 1 and Post 2 annexes. (Action: Consulate General
     Jerusalem)      


     RECOMMENDATION 48: (b)(2)(b)(5)

                                                                                                                 



62                   OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


                   SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED



RECOMMENDATION 49: Consulate General Jerusalem should load its call
accounting system with the necessary data required to reestablish call accounting
procedures. (Action: Consulate General Jerusalem)      




                OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011   63


              SENSITIVE BUT UNCLASSIFIED
     SENSITIVE BUT UNCLASSIFIED





64   OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


     SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




INFORMAL RECOMMENDATIONS


Informal recommendations cover operational matters not requiring action by organi­
zations outside the inspected unit and/or the parent regional bureau. Informal recom­
mendations will not be subject to the OIG compliance process. However, any subse­
quent OIG inspection or on-site compliance review will assess the mission’s progress
in implementing the informal recommendations.


Executive Direction

The DPO spends extensive time editing cables, deliberates too long over decisions on
certain routine matters, and requires that a number of unnecessarily low-level issues
come to him for resolution.

Informal Recommendation 1: Consulate General Jerusalem should delegate more
authority to section chiefs and use the deputy principal officer’s office management
specialist to speed the movement of paperwork through the executive office.


Political and Economic Affairs

Security considerations have prevented American officers from traveling regularly to
the Gaza Strip, making reporting and contact development there more difficult.

Informal Recommendation 2: Consulate General Jerusalem should form a tempo­
rary working group that would combine the efforts of its various sections to rebuild
political and other contacts in the Gaza Strip.

Washington consumers need more biographic reporting on future Palestinian leaders.

Informal Recommendation 3: Consulate General Jerusalem should designate an
officer as biographics coordinator and develop a plan to increase leadership analysis
reporting, requesting temporary duty assistance as appropriate from the Bureau of
Intelligence and Research.

Jerusalem does not report on trafficking in persons issues. Although such reporting
is not required by U.S. legislation, as long as the West Bank and Gaza are not a state,
Washington consumers need this information and the mission needs to produce it as
part of its efforts to build institutions for an independent state.




                OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011   65


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




     Informal Recommendation 4: Consulate General Jerusalem should include the
     issue of trafficking in persons in its reporting plan.


     Rule of Law

     Coordination of a projected buildup of assistance in the criminal justice sector will be
     aided by a written statement of its strategy.

     Informal Recommendation 5: Consulate General Jerusalem should draw up a rule
     of law strategy laying out an interagency plan for a transition in the emphasis of U.S.
     Government assistance to the Palestinian Authority from security to justice.


     Public Diplomacy

     The PD section has added American officers and LE staff positions in the past few
     years, but the lines of communication and distribution of responsibilities have not
     been clearly defined.

     Informal Recommendation 6: Consulate General Jerusalem should have its public
     affairs officer reevaluate the distribution of responsibilities and supervisory chains
     and conduct an off-site meeting with the entire public diplomacy section to gain
     buy-in for a more clearly defined organization plan.


     Consular Operations

     There is a multilayered process for vetting applicants for official exchange visitor
     visas. A delay in one step can it can impede the whole chain of procedures required
     for obtaining the J-1 exchange visitor visa, resulting in postponements or cancella­
     tions of exchange visitor programs.

     Informal Recommendation 7: Consulate General Jerusalem’s consular, public
     diplomacy, political and security sections should jointly devise a system to streamline
     the visa vetting process for exchange visitors.

     The consular section has one contract greeter and one ACS assistant who work out
     of secure booths at the CAC. They check applicants against an appointment list
     and assemble some documents before customers pass through security. Lines form
     behind each booth and then again when those same customers pass through security
     screening.




66                   OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




Informal Recommendation 8: Consulate General Jerusalem should authorize the
local guards to admit consular customers on the basis of their appointment letters,
and only those with no appointment letter should be referred to the greeter’s booth.

Only one consular customer at a time is permitted to enter the CAC, unless that
applicant is part a family group. The CAC is large and adequately staffed to handle
more customers. Delays at the CAC often mean officers and LE staff can be waiting
inside without customers, which is inefficient.

Informal Recommendation 9: Consulate General Jerusalem should review
compound access controls at the consular facility, identify bottlenecks, and improve
security screening procedures to provide for better customer flow-through.

The consular section limits contact on IV cases to email. It is often difficult for
persons without computer access or those with complicated case-specific questions to
receive appropriate and timely guidance by email.

Informal Recommendation 10: Consulate General Jerusalem should establish tele­
phone inquiry hours for the immigrant visa unit to supplement the email boxes.

The IV unit uses autoreplies to address a series of common questions, but the auto-
replies are only in English. Even when the correspondence staff determines that an
IV question requires an individual reply and the inquirer has written in Arabic or
Hebrew, the response is prepared in English.

Informal Recommendation 11: Consulate General Jerusalem should prepare its
immigrant visa autoreply script in Arabic and Hebrew.

Informal Recommendation 12: Consulate General Jerusalem should respond to
email inquiries in the language of the inquirer.

The IV unit has a backlog of IV cases awaiting reconsideration after the submission
of additional documentation.

Informal Recommendation 13: Consulate General Jerusalem should make judi­
cious use of overtime to keep immigrant visa backlogs under control until the
number of documentary refusals can be reduced.

Consulate General Jerusalem has a high refusal rate for the relatives of U.S. citizens
permanently resident in Jerusalem’s consular district. Few IV applicants arrive with
affidavits from additional sponsors or with the required tax letter even though both
are normally easy to procure.




                OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011   67


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




     Informal Recommendation 14: Consulate General Jerusalem should develop a
     handout on domicile and affidavit of support issues for the relatives of U.S. citizens
     permanently resident in Jerusalem’s consular district, give it to U.S. citizens when
     they file their petitions locally, and also provide it to the National Visa Center to
     include in its checklists.

     At the time of the inspection, there were waiting times of several months for appoint­
     ments to process passports and consular reports of birth abroad in Ramallah.

     Informal Recommendation 15: Consulate General Jerusalem should reduce the
     Ramallah backlogs through more frequent trips, a streamlined fee collection process,
     and an increase in the number of services provided per trip.


     Management

     The financial management unit processes advances for LE staff travel in cash and
     outside the E2 Solutions system, which increases workload and cash risk.

     Informal Recommendation 16: Consulate General Jerusalem should consider
     prepaid debit cards for locally employed staff who travel internationally on official
     business.

     The consulate general does not make full use of purchase cards that would empower
     sections to make their own purchases, thereby speeding up the process and improv­
     ing customer service. The PD section, in particular, could benefit from having its
     own purchase card.

     Informal Recommendation 17: Consulate General Jerusalem should issue more
     purchase cards to sections.

     In FY 2010, the consulate general outsourced the processing of 23 vouchers to the
     Bangkok Post Support Unit, compared to Tel Aviv’s 2,072. Using the Post Support
     Unit could reduce the financial management unit’s workload and establish a contin­
     gency capability for this 15 percent danger pay post.

     Informal Recommendation 18: Consulate General Jerusalem should outsource the
     processing of more vouchers to the Bangkok Post Support Unit.

     West Bank residents are underrepresented in the LE staff workforce. They often have
     difficulty obtaining security checkpoint permits, which are needed for some positions
     that require shift work.




68                   OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




Informal Recommendation 19: Consulate General Jerusalem should focus greater
attention on the issue of West Bank representation among its locally employed staff
by using oversight by the human resources officer during the recruiting, screen­
ing, and selection processes so that West Bank residents are not disadvantaged from
employment.

The consulate has purchased a number of U.S. brand vehicles on the local Israeli
market. There was no record of an authorization for these vehicles on file.

Informal Recommendation 20: Consulate General Jerusalem should confirm
approval with the Bureau of Administration for the purchase of U.S. brand vehicles
on the local Israeli market and submit requests for approval as needed in the future.

The mission vehicle policy does not clearly lay out the foundation of the chief of
mission’s authority over all official vehicles and does not include a requirement for
incidental drivers to complete driver safety training, although the requirement does
appear in the vehicle safety management notice.

Informal Recommendation 21: Consulate General Jerusalem should clarify the
basis of the chief of mission’s authority in the mission vehicle policy.

Informal Recommendation 22: Consulate General Jerusalem should include in the
mission vehicle policy the requirement that all drivers complete driver safety training.

A number of housing inventories were missing from the files. The office procedures
were revised to ensure that inventories are returned from new occupants in a timely
manner, but there was no system to look at files for homes already occupied.

Informal Recommendation 23: Consulate General Jerusalem should conduct a full
review of the housing inventories so that any missing inventories for current occu­
pants are restored to the files.

The consulate has a number of issues with parking both for official vehicles and
employees’ personally owned vehicles, particularly those of employees working at the
GSO warehouse. The Arnona site has three parking lots that have excess capacity.

Informal Recommendation 24: Consulate General Jerusalem should assess the
potential for using the Arnona parking lots for official vehicles or as secure parking
for consulate employees.

All work orders are currently submitted through the Work Order for Windows
system, and an employee sorts through them every morning to distribute them to the
correct units.




                OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011   69


               SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




     Informal Recommendation 25: Consulate General Jerusalem should contact other
     missions for advice on procedures to clarify the request system for end users, the
     facilities section, and the general services office.


     Information Management

     There is excess computer equipment stored in the unclassified server rooms located in
     the GSO warehouse and the Lazarist buildings. Server rooms should not be used to
     store excess equipment and furniture.

     Informal Recommendation 26: Consulate General Jerusalem should dispose of
     excess information management equipment and remove old furniture in the unclassi­
     fied server rooms located in the Lazarist and warehouse buildings.

     The consulate’s Post 1 annex telephone frame room is colocated with the local service
     provider’s demarcation area and does not have a log book to record the time and
     purpose of all entries to that room.

     Informal Recommendation 27: Consulate General Jerusalem should log all access
     to the telephone frame room in the Post 1 annex. 

     The Post 1 annex is considered to be a historical property by the city municipality.
     For aesthetic reasons, the mail screening container is located across the city at the
     consulate’s recently opened Arnona annex. This arrangement causes internal delivery
     delays of up to 24 hours.

     Informal Recommendation 28: Consulate General Jerusalem should relocate its
     mail screening container to the Agron Street compound to expedite internal local
     mail handling procedures and delivery services.


     Quality of Life

     Given the intersection of three cultures in Jerusalem and the attendant variation in
     communication styles, employees sometimes interpret communication disconnects as
     EEO problems.

     Informal Recommendation 29: Consulate General Jerusalem should conduct
     periodic Equal Employment Opportunity outreach sessions to supplement the annual
     management notices on the program and the workplace posters.

     Informal Recommendation 30: Consulate General Jerusalem should amend its
     intranet site to feature Equal Employment Opportunity information on the homep­
     age rather than as a subset of the human resources section.


70                     OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


                   SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED




Scores for the health unit on ICASS and OIG surveys and in OIG interviews were
significantly lower than average.

Informal Recommendation 31: Consulate General Jerusalem should use feedback
given by International Cooperative Administrative Support Services customers in the
latest satisfaction survey to guide efforts by the health unit to improve service.




               OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011   71


              SENSITIVE BUT UNCLASSIFIED
     SENSITIVE BUT UNCLASSIFIED





72   OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


     SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED




PRINCIPAL OFFICIALS


Position                                                          Name                                   Arrival Date

Consul General                                                    Daniel Rubinstein                          09/2009
Deputy Principal Officer                                          Gregory Marchese                           08/2008

Section Chiefs:

Political                                                         John Waters                                06/2009
Economic                                                          Mark Johnson                               08/2010
Management                                                        Grace Stettenbauer                         09/2008
Public Affairs                                                    Frank Finver                               08/2009
Consular                                                          Debra Towry                                10/2009
Security                                                          Robert Grech                               06/2010
Bureau of International Narcotics                                 Alyce Tidball                              09/2010
 and Law Enforcement Affairs

Special Envoy for Middle East Peace                               Amb. David Hale                            10/2009
U.S. Security Coordinator                                         LTG Michael Moeller                        09/2010

Other agencies:

Department of Justice                                             Andre Khoury                               06/2010
                                                                  Karen Exel                                 09/2009
Office of Regional Affairs                                        Christopher Huttleston                     08/2009
Treasury                                                          Katherine Bauer                            03/2009




                  OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011                  73


                  SENSITIVE BUT UNCLASSIFIED
     SENSITIVE BUT UNCLASSIFIED





74   OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


     SENSITIVE BUT UNCLASSIFIED
          SENSITIVE BUT UNCLASSIFIED




ABBREVIATIONS


ACS                     American citizens services
CAA                     controlled access area
CAC                     compound access control
CLO                     community liaison office
DIN                     dedicated Internet network
DPO                     deputy principal officer
EEO                     Equal Employment Opportunity
ELO                     entry-level officer
FAH                     Foreign Affairs Handbook
FAM                     Foreign Affairs Manual
FSN                     Foreign Service national
GSO                     general services office
ICASS                   International Cooperative Administrative Support
                        Services
IM	                    information management
INL	                    Bureau of International Narcotics and Law Enforcement
IV                      immigrant visa(s)
LE	                     locally employed (staff)
NIV                    nonimmigrant
                       	            visa
OBO 	                   Bureau of Overseas Buildings Operations
OIG	                   Offi ce of Inspector General
PD	                    public diplomacy
PRM 	                   Bureau of Population, Refugees and Migration
SEMEP 	                 Special Envoy for Middle Eastern Peace
UNRWA 	                 United Nations Relief and Works Agency for Palestine
                        Refugees in the Near East
USAID 	                 United States Agency for International Development
USSC	                  Offi ce of the United States Security Coordinator

          OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011   75


          SENSITIVE BUT UNCLASSIFIED
     SENSITIVE BUT UNCLASSIFIED





76   OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


     SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



APPENDIX: JOINT ISSUES

The recommendations in this appendix reflect those findings in the 2010 OIG
inspections of Embassy Tel Aviv and Consulate General Jerusalem that require joint
action by both missions to resolve. The findings appear in identical form in both
reports. The recommendations are an integral—indeed, a vital—part of both inspec-
tions, but for greater clarity in the compliance process, they are also being issued as a
separate OIG report, Joint Issues in the Inspections of Embassy Tel Aviv and Consulate
General Jerusalem (ISP-I-11-35).

To ensure unambiguous accountability, OIG has assigned lead action on joint
recommendations to one mission in coordination with the other. Successful resolu-
tion, however, will require action by both, and OIG regards both posts as equally
responsible.

Despite its name, Consulate General Jerusalem is not a constituent post of the
embassy in Tel Aviv, but a separate mission that has chief of mission authority of its
own and reports directly to Washington. Its primary mission is to carry out relations
with the Palestinian Authority, including quasi-diplomatic efforts to promote nego-
tiations toward an independent Palestinian state and programs aimed at helping build
the institutions necessary for such a state. At the same time, the consulate general
(b)(2)(b)(5)                         depends on Embassy Tel Aviv for critical support
on both practical and policy levels. The result is that neither mission can succeed
without close cooperation with the other.




EXECUTIVE DIRECTION
As noted in previous sections of this report, relations between the embassy and the
consulate general are better than they have been in many years. During the survey,
Washington officials warned the OIG team of past conflicts between the missions
over turf, authority, and perspective (b)(2)(b)(5)                     Despite some
lingering areas of confusion or inefficiency, the OIG team found an appropriate
structural relationship and a better picture of cooperation than expected. Current
embassy and consulate general leadership models good behavior, aware of the rule of
thumb that when commanders quarrel, they give permission to everyone below them
to echo or amplify their disputes.




                OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011   77


               SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED





     Instead of waiting for such problems to resurface, the missions could move now to
     institutionalize this atmosphere and create an ongoing culture of cooperation. Doing
     so could help prevent backsliding in the future, when leaders’ personalities may not
     be as collegial as they are now. Embassy Beijing and Consulate General Hong Kong,
     the latter of which, like Jerusalem, is a free-standing mission and not a constituent
     post, reached a written agreement on these issues in 2009.

     Joint Recommendation 1: Embassy Tel Aviv, in coordination with Consulate
     General Jerusalem, should draft and agree upon a document setting forth principles
     and procedures requiring joint action and affecting work in each other’s consular
     districts. (Action: Embassy Tel Aviv, in coordination with Consulate General
     Jerusalem)

     The Ambassador and consul general now attend public events together and encour­
     age collaboration among their staffs. They could further motivate their employees to
     work together by finding additional ways to demonstrate their own relations of trust.
     Joint Recommendation 2: Embassy Tel Aviv, in coordination with Consulate
     General Jerusalem, should develop and carry out a plan to attend each other’s
     country team meetings at least quarterly, including at the chief of mission level, to
     share perspectives and improve coordination between the missions. (Action: Embassy
     Tel Aviv, in coordination with Consulate General Jerusalem)



     POLITICAL AND ECONOMIC AFFAIRS
     Some reporting on Israeli-Palestinian issues could be strengthened by closer coordi­
     nation between the consulate general and the embassy. The embassy bases its report­
     ing on Israeli sources, and the consulate on Palestinian sources. On occasion, this
     has led to “dueling cables” that reflect the contradictory perspectives of two foreign
     adversaries rather than an integrated view of both missions. The embassy and consul­
     ate have begun to hold joint meetings on some subjects, but their efforts to combine
     reporting have been hindered by too narrow a view of which post will receive the
     primary credit and which one will be listed as “contributing.” Joint reporting would
     not eliminate different views on policy or interpretation but combine information
     from both sources in a single message where appropriate. The British mission, facing
     similar dilemmas, makes extensive use of joint reporting by its embassy in Tel Aviv
     and its consulate general in Jerusalem.




78                   OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


                   SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




Joint Recommendation 3: Consulate General Jerusalem, in coordination with
Embassy Tel Aviv, should develop and carry out a plan to increase their joint
reporting on Israeli-Palestinian issues. (Action: Consulate General Jerusalem, in
coordination with Embassy Tel Aviv)

Both missions need to clarify the role of the Treasury representative in Jerusalem.
Her work is focused on the West Bank but sometimes requires interaction with Israeli
officials as well. Some Treasury Department visitors have been too impatient with
this distinction and have pushed for her, instead of U.S. diplomats in Tel Aviv, to
represent the U.S. Government in meetings with Israeli officials. The embassy has
also not been adequately sensitive to Treasury’s need to deal with both authorities in
order to carry out its responsibilities on complex issues such as Israeli Government
permission for cash transfers into Gaza. Both missions could improve effectiveness by
a limited cross-accreditation of the Treasury representative.
Joint Recommendation 4: Embassy Tel Aviv, in coordination with Consulate
General Jerusalem, the Bureau of Near Eastern Affairs, and the Bureau of Resource
Management, should approve any National Security Decision Directive 38 request
to accredit the Treasury representative in Jerusalem to work on Palestinian issues
with Israeli Government officials under the general supervision of Embassy Tel Aviv’s
minister-counselor for economic affairs. (Action: Embassy Tel Aviv, in coordination
with Consulate General Jerusalem, NEA, and RM)



PUBLIC DIPLOMACY
Cooperation between the two missions is closer in the area of public diplomacy (PD).
In addition to coordinating on visits, they collaborate on joint International Visitor
programs with Israelis and Palestinians and share speakers and cultural programs.
The American Center in Jerusalem (managed by Tel Aviv) helped the consulate
general set up a new America House in East Jerusalem. Some PD programs have been
affected by the lack of clarity over which post is responsible for certain administrative
support functions discussed in the management section of this report.




CONSULAR OPERATIONS
Both posts suffered from an anomaly in their visa referral practices. Because
Consulate General Jerusalem is not a constituent post, Department regulations did
not permit section chiefs in Embassy Tel Aviv to refer their contacts to the consulate
general for expedited consular appointments or Consulate General Jerusalem to refer


                OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011   79


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




     visa cases to Embassy Tel Aviv. Because Embassy Tel Aviv is the authorized liaison
     with all Israeli Government ministries, most of which are located in Jerusalem, this
     prohibition limited the embassy’s ability to facilitate visa services for contacts in
     Jerusalem, even when the contact was working on issues that benefitted Consulate
     General Jerusalem. During the inspection, the Bureau of Consular Affairs amended
     the Foreign Affairs Manual (9 FAM Appendix K) to permit reciprocal referrals.

     Both missions have been talking for some time about exchanges in their consular
     sections. Although language limitations and efficiency considerations must be taken
     into account, the OIG team supports efforts to establish officer exchanges. Because
     the two posts are about an hour apart, these exchanges could be implemented with­
     out housing swaps, making them available to a wider range of officers than would
     otherwise be the case.




     RESOURCE MANAGEMENT
     Both missions could do more to get more out of their limited resources by
     de-conflicting remaining areas of uncertainty or dispute and supporting each other
     whenever possible. The OIG team found residual tensions stemming from the
     embassy’s keeping control of some functions that dated back to the period when
     it was much larger than the consulate general or the consulate general’s assuming
     that autonomy is automatically preferable. Both sometimes operate on assumptions
     about Israeli Government requirements that hamper efficiency and may be outdated.
     The guiding principle should be advancing overall U.S. objectives as cost effectively
     as possible, not debating the prerogatives of one post or the other. Sometimes this
     principle will lead to more joint actions, sometimes to fewer, and sometimes to
     maintenance of the status quo, depending on the activity.

     New technology tools would help the missions share financial services. The
     Integrated Logistics Management System, now being deployed worldwide and
     projected to interface in the future with the Bureau of Resource Management’s finan­
     cial management system, offers possibilities. Microsoft Office SharePoint Services,
     now used by Consulate General Jerusalem and soon by Embassy Tel Aviv, holds
     promise as a means to share information and provide common workflow.

     Resolution of several management issues depends on cooperation between the two
     missions. One issue is mutual International Cooperative Administrative Support
     Services (ICASS) service support, which is problematic as the Department currently
     has no financial mechanism that allows one post to bill another for services. The
     ICASS Service Center realizes that this is a systemic deficiency and is working to
     develop such a capability within its software. In the meantime, the two missions


80                   OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




compensate for this shortfall in various ways. For example, the PD section in Tel
Aviv concluded in 2003 a memorandum of understanding that calls for Jerusalem to
provide 15 ICASS services to Tel Aviv’s American Center in Jerusalem. As there is no
payment mechanism, however, the workload and capitation counts for the American
Center are included in those of the PD section in Jerusalem. Embassy Tel Aviv
also provides pouch, diplomatic post office, and BlackBerry® services to Consulate
General Jerusalem at no charge, absorbing the associated costs in its own budget. In
the case of automated equipment in the American Center and the Ambassador’s suite
in the King David Hotel, the embassy makes weekly maintenance and service visits
when it would be more efficient for the consulate general to do them. The missions
will also face an increased need for an ICASS cost reimbursement capability as the
U.S. Agency for International Development increases the number of personnel that
straddle the two missions and if the two missions collaborate to share some adminis­
trative support functions.

Joint Recommendation 5: The Bureau of Resource Management’s International
Cooperative Administrative Support Services Center should implement a system that
allows post-to-post charging and payment for services. (Action: RM)

Redundant administrative functions exist at the two missions. In Embassy Tel Aviv,
the OIG team noted that the consolidation plan is more of a status report than an
actionable set of proposals with defined milestones and outcomes. In Consulate
General Jerusalem, the Bureau of International Narcotics and Law Enforcement
Affairs section is growing and includes a management officer and administrative
support staff that mirror some consulate management section functions. The planned
increase of U.S. Agency for International Development positions in Jerusalem could
create additional redundancies. Duplicative administrative functions are inefficient
and would make a bad space problem even worse. Moreover, they would create a
larger staff footprint in a 15 percent danger-pay post.
Joint Recommendation 6: Embassy Tel Aviv, in coordination with Consulate
General Jerusalem, should consolidate administrative support functions at both
missions where appropriate to reduce or eliminate areas of duplication. (Action:
Embassy Tel Aviv, in coordination with Consulate General Jerusalem)



VISITOR SUPPORT
More joint support of visitors could help both missions manage a heavy visitor
workload. Embassy Tel Aviv coordinates aspects of a visit that deal with the Israeli
Government, whereas Consulate General Jerusalem coordinates meetings with
Palestinians. This formula provides a clear line of responsibility for political purposes,
but using it to provide logistical support results in an inefficient use of people and


                 OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011   81


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




     resources. Embassy Tel Aviv will send a number of people, including drivers, security
     personnel, and expeditors, to stay with the visitors in Jerusalem, incurring a high
     cost for hotel nights, per diem, and overtime pay. The embassy also coordinates
     hotel reservations and other arrangements from Tel Aviv instead of using local
     Jerusalem personnel. Embassy Tel Aviv believes Consulate General Jerusalem does
     not have staff with the necessary credentials to provide this support in Jerusalem,
     explaining, for example, that the Israeli Government will not allow drivers from the
     consulate general to enter the Ministry of Foreign Affairs and other government
     office compounds because they are not Israeli citizens. The OIG team found this to
     be outdated information; in fact, all consulate general drivers are registered on an
     approved access list at the Ministry of Foreign Affairs and other government agencies.
     Another point of contention is access to the airport: Embassy Tel Aviv applies for
     access badges for employees and has a total of 62 for both missions; however, it has
     given only 5 badges to Jerusalem for use by its shipping expeditors. A more equitable
     allocation of access badges will allow Consulate General Jerusalem to pick up visitors
     at the airport who plan to go directly to Jerusalem.

     The OIG team concluded that Consulate General Jerusalem has, or could develop,
     the resources and contacts needed to provide more logistical support to visitors
     in Jerusalem without incurring the additional costs of moving a support platform
     between cities. In some cases, the consulate may not currently have the financial
     resources to increase its support of visitors, but developing a plan that includes
     increasing resources to the consulate would result in an overall cost savings to the
     Department in the long term.

     Joint Recommendation 7: Embassy Tel Aviv, in coordination with Consulate
     General Jerusalem, should develop a joint process to provide logistical support for
     visitors to Jerusalem from Consulate General Jerusalem where appropriate and
     cost effective. (Action: Embassy Tel Aviv, in coordination with Consulate General
     Jerusalem)




     HUMAN RESOURCES
     Consulate General Jerusalem employees from the West Bank face special difficul­
     ties in traveling to and from work past military checkpoints, as most do not have
     permits to remain in Israel proper outside working hours. Many feel isolated from
     their American and Israeli colleagues. The OIG team found that this problem had a
     significant impact on performance and morale.




82                   OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




Joint Recommendation 8: Embassy Tel Aviv, in coordination with Consulate
General Jerusalem, should improve the performance and morale of Consulate
General Jerusalem employees who are residents of occupied West Bank territories
by requesting the Israeli Government to ease restrictions on their ability to remain
in Israel after working hours and to facilitate their passage through military check­
points to and from work. (Action: Embassy Tel Aviv, in coordination with Consulate
General Jerusalem)

The two missions share a single, local compensation plan. Although the OIG team
agrees that a single plan is appropriate, it found a number of deficiencies that will
require joint action to correct. Responsibility for the plan passed in June 2009 from
Embassy Tel Aviv to Consulate General Jerusalem. The transfer of responsibility
was made on an informal basis and the duration is unclear. No joint committee or
working group exists that would consult on compensation matters and resolve issues
that may arise between the two posts, which must deal with different categories of
employees and provide equitable treatment to all. Communication between the two
posts on compensation matters is ad hoc. The end result is that some problems that
now cause low morale among LE staff and unequal treatment of some employees
have languished for months, if not years.

Joint Recommendation 9: The Bureau of Near Eastern Affairs should require
Embassy Tel Aviv and Consulate General Jerusalem to document their agreement on
roles and responsibilities for administration of their shared local compensation plan.
(Action: NEA)

Joint Recommendation 10: The Bureau of Near Eastern Affairs should require
Embassy Tel Aviv and Consulate General Jerusalem to form a joint committee that
shall meet on a scheduled and regular basis to consult and resolve issues pertaining to
their shared local compensation plan. (Action: NEA)

Both missions participate in a supplemental retirement savings plan. The plan
augments social security benefits provided to Israeli citizens but is the only source of
retirement benefits for employees who hold West Bank identification. Employees and
the U.S. Government each contribute to the personal accounts, which are handled
through a broker with two insurance companies. In response to a 2008 change in
local law, Embassy Tel Aviv considered modernizing its retirement savings program.
Doing so required an audit, which had not been conducted since the program’s
inception. At the time of the inspection, the audit was in its 17th month and still
incomplete. LE staff members express little confidence in the savings program.
Despite management and employee agreement that a new retirement savings plan is
needed, the process is at a standstill.




                OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011   83


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




     Joint Recommendation 11: The Bureau of Near Eastern Affairs should require
     Embassy Tel Aviv and Consulate General Jerusalem to complete the audit of
     their common retirement savings program and establish a successor program that
     conforms to prevailing local practice, good governance, and legal requirements, and
     includes regularly scheduled audits. (Action: NEA)

     Health and social security benefits differ for those employees who are covered by the
     Israeli National Insurance Institute (NII) and those who are not. West Bank employ­
     ees are ineligible for national insurance; their retirement benefits consist only of the
     supplemental savings plan described earlier. Their health benefits consist of reim­
     bursement of 50 percent of medical costs up to a limit of 5 percent of their salary.
     Using data from comparators collected by the consulate general, the two missions
     could develop a joint plan to provide more equitable coverage.

     Joint Recommendation 12: The Bureau of Near Eastern Affairs should require
     Embassy Tel Aviv and Consulate General Jerusalem to submit to the Bureau of
     Human Resources for approval a plan to modify the missions’ local compensation
     plan to provide equitable retirement and health benefits to employees who are not
     eligible for National Insurance Institute of Israel coverage. (Action: NEA)

     The 2005 OIG report recommended that Consulate General Jerusalem, in coordina­
     tion with Embassy Tel Aviv, resubmit a loan option request to the Bureau of Human
     Resources for approval. These loans against employee contributions to the supple­
     mental retirement savings accounts, which were allowed from 1999 to 2003, are
     especially important to non-Israeli citizen employees who do not have ready or easy
     access to bank loans. The two missions complied with the recommendation, gathered
     comparator data, and requested approval of the loan option. The Department denied
     the request. The OIG team examined the request documentation and consulted with
     the human resources sections of both missions, reaching agreement that the change
     in comparators from Watson Wyatt to Birches may make a difference. Moreover
     and in retrospect, the approach the missions took in interpreting and executing the
     Bureau of Human Resources guidance could have been flawed with regard to relat­
     ing it to local prevailing practice. The changed circumstances and importance of the
     loan option in achieving some equity among LE staff warrant yet another attempt to
     gain approval from the Bureau of Human Resources, which has offered to review the
     request again if post is able to collect additional comparator data.

     Joint Recommendation 13: The Bureau of Near Eastern Affairs should require
     Embassy Tel Aviv and Consulate General Jerusalem to develop a justification for
     reinstating the option of loans against retirement savings accounts and submit it to
     the Bureau of Human Resources for approval. (Action: NEA)




84                   OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


                    SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




The local compensation plan, dated September 12, 2010, and approved by the
Bureau of Human Resources, includes an annual transportation allowance of 5,214
New Israeli Shekels for every employee regardless of grade. Consulate General
Jerusalem believes that the rate should be 5,641 New Israeli Shekels in order to
comply with local law.

Joint Recommendation 14: The Bureau of Near Eastern Affairs should require
Embassy Tel Aviv and Consulate General Jerusalem to determine the level of transporta­
tion allowance required by local law and request Department of State approval for any
necessary changes to their shared local compensation plan. (Action: NEA)




FINANCIAL MANAGEMENT
The OIG team found anomalies in the system by which the missions pay their
portions of the premiums for health and social security benefits. Consulate General
Jerusalem budgets for the entire amount due based on each employee’s salary and
an assumption that each employee will pay his or her entire obligation. Embassy
Tel Aviv budgets are based on the prior year’s actual expenses, a far smaller amount.
Employees pay some or all of the required premium payments, present proof of
payment to the financial management office, and are reimbursed.

Some employees at both missions are not claiming premium reimbursements in a
timely manner, and some are not claiming an amount commensurate with their
salaries. As a result, the missions are carrying forward unliquidated obligations from
year to year. Consulate General Jerusalem’s 2007 program, ICASS, and PD accounts
contain $309,171 in unliquidated NII premium funds. The same accounts for 2008
contain $355,860 of unliquidated obligations. By comparison, Embassy Tel Aviv
retained approximately $73,000 in similar accounts for FY 2009.

This practice creates a significant and unnecessary workload for the financial
management unit, which processes payments by hundreds of LE staff each month.
Many of the payments are made by the Class B cashiers at both missions, which
increases cash risk. Paying the entire employer share of NII premiums in conjunction
with regular salary payments would dispose of this obligation in a more efficient
manner, eliminate the workload associated with the current method of payment,
and reduce the large number of unliquidated obligations that are carried forward for
many years.




                OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011   85


               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




     Joint Recommendation 15: The Bureau of Near Eastern Affairs should require
     Embassy Tel Aviv and Consulate General Jerusalem to pay their obligations for the
     employer portion of National Insurance Institute of Israel social security and health
     benefits plan in full, in a timely manner, and in accordance with local practice and
     law. (Action: NEA)




     INFORMATION MANAGEMENT AND INFORMATION
     SECURITY
     Combining classified information networks would reduce costs for both missions. A
     consolidated network would create a suitable platform to support the joint reporting
     recommended earlier.

     Joint Recommendation 16: The Bureau of Near Eastern Affairs, in coordination
     with the Bureau of Information Resource Management, should require Embassy Tel
     Aviv and Consulate General Jerusalem to consolidate their classified information
     networks. (Action: NEA, in coordination with IRM)

     Embassy Tel Aviv and Consulate General Jerusalem are not performing informa­
     tion systems security officer (ISSO) duties adequately due to insufficient staffing
     and competing priorities. There is little likelihood that the Department will create
     separate, full-time ISSO positions at both the consulate general and the embassy, so
     a more prudent approach is to designate a dedicated regional ISSO to support both
     missions.

     Joint Recommendation 17: The Bureau of Near Eastern Affairs, in coordina­
     tion with the Bureau of Human Resources, should establish a regional information
     systems security officer position to support Embassy Tel Aviv and Consulate General
     Jerusalem. (Action: NEA, in coordination with DGHR)




86                   OIG Report No. ISP-I-11-34A - Inspection of Consulate General Jerusalem - March 2011


                    SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE

OR MISMANAGEMENT

 of Federal programs hurts everyone.



           Contact the

   Office of Inspector General


         HOTLINE

to report illegal or wasteful activities:


            202-647-3320
            800-409-9926

         oighotline@state.gov

              oig.state.gov

      Office of Inspector General

       U.S. Department of State

            P. O. Box 9778

         Arlington, VA 22219



     Cables to the Inspector General
    should be slugged “OIG Channel”
        to ensure confidentiality.




SENSITIVE BUT UNCLASSIFIED

